<html>
<title> - ENHANCING TRIBAL SELF-GOVERNANCE AND SAFETY OF INDIAN ROADS</title>
<body><pre>[Senate Hearing 116-15]
[From the U.S. Government Publishing Office]


                                                         S. Hrg. 116-15

      ENHANCING TRIBAL SELF-GOVERNANCE AND SAFETY OF INDIAN ROADS

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 3, 2019

                               __________

         Printed for the use of the Committee on Indian Affairs
         
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]  
 
 
Available via the World Wide Web: http://www.govinfo.gov
                    
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
36-243 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="57273817342224233f323b277934383a79">[email&#160;protected]</a> 
 
  


                      COMMITTEE ON INDIAN AFFAIRS

                  JOHN HOEVEN, North Dakota, Chairman
                  TOM UDALL, New Mexico, Vice Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
LISA MURKOWSKI, Alaska               JON TESTER, Montana,
JAMES LANKFORD, Oklahoma             BRIAN SCHATZ, Hawaii
STEVE DAINES, Montana                CATHERINE CORTEZ MASTO, Nevada
MARTHA McSALLY, Arizona              TINA SMITH, Minnesota
JERRY MORAN, Kansas
     T. Michael Andrews, Majority Staff Director and Chief Counsel
       Jennifer Romero, Minority Staff Director and Chief Counsel
                           
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 3, 2019....................................     1
Statement of Senator Cortez Masto................................    30
Statement of Senator Daines......................................    37
Statement of Senator Hoeven......................................     1
Statement of Senator McSally.....................................    31
Statement of Senator Tester......................................    33
Statement of Senator Udall.......................................     2

                               Witnesses

Garcia, Hon. Joe, Head Councilman, Ohkay Owingeh Pueblo Council..    19
    Prepared statement...........................................    20
Gishi, Leroy, Chief, Division of Transportation, Bureau of Indian 
  Affairs, U.S. Department of the Interior.......................     9
    Prepared statement...........................................    11
Hess, Timothy, Associate Administrator, Federal Lands, Federal 
  Highway Administration, U.S. Department of Transportation......     3
    Prepared statement...........................................     5
Lewis, Hon. Stephen Roe, Governor, Gila River Indian Community...    13
    Prepared statement...........................................    15

                                Appendix

Bear Runner, Hon. Julian, President, Oglala Sioux Tribe..........    43
Letters submitted for the record from the Duckwater Shoshone 
  Tribe..........................................................    45

 
      ENHANCING TRIBAL SELF-GOVERNANCE AND SAFETY OF INDIAN ROADS

                              ----------                              


                        WEDNESDAY, APRIL 3, 2019


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:30 p.m. in room 
628, Dirksen Senate Office Building, Hon. John Hoeven, 
Chairman of the Committee, presiding.

            OPENING STATEMENT OF HON. JOHN HOEVEN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    The Chairman. Good afternoon.
    I call this oversight hearing to order.
    Today, the Committee will examine transportation programs 
that affect Indian roads and bridges. Approximately 147,000 
miles of roads and 930 bridges are located throughout Indian 
Country. These roads, highways and bridges are used by children 
going to their schools, emergency and first responders to reach 
those in need, and tribal members to reach their place of 
employment.
    These roads also provide economic opportunity to tribes by 
providing access to and from Indian lands. However, many of 
these roads and bridges are in need of improvement. According 
to the Bureau of Indian Affairs, there is at least a $280 
million backlog of deferred maintenance of BIA roads with only 
17 percent of the BIA roads considered to be in acceptable 
condition.
    The conditions of these roads may be a reason why motor 
vehicle crashes are a leading cause of unintentional injury or 
death for Indians. In fact, according to the Centers for 
Disease Control and Prevention, the adult motor vehicle-related 
death rates for Native Americans are more than twice the 
national average.
    Among Indian infants less than 1 year of age, the motor 
traffic death rate is eight times higher than the national 
average. This has to stop. Approximately every five years, 
Congress has the opportunity to reauthorize the Highway 
Transportation bill.
    In 2015, the Fixing America's Surface Transportation Act, 
the FAST Act, was signed into law. It included programs for 
tribal highway maintenance, construction, and safety programs 
for Indian tribes. The FAST Act also authorized increases for 
the Tribal Transportation Program. This program is jointly 
administered by the Department of Transportation's Highway 
Administration Federal Lands Highway Office and the Bureau of 
Indian Affairs Division of Transportation. Together, they 
administer over $495 million of annual funding for 
transportation programs.
    The FAST Act also directed the Secretary of Transportation 
to complete several reports to Congress regarding tribal 
transportation safety data. Some of the findings in these 
reports are very concerning.
    For instance, according to the Department of 
Transportation, there is no uniform crash report form among the 
BIA law enforcement. Without a uniform crash report form, data 
and statistics cannot be shared among the 12 BIA regions and 
tribes.
    Data is available to help prevent and address many causes 
for motor vehicle crashes and deaths. Very soon, I plan to 
introduce legislation that would enhance the safety of roads in 
Indian Country. This bill was drafted based on recommendations 
from the BIA, the Department of Transportation and Indian 
tribes.
    Highlights of the bill include streamlining traffic safety 
projects at the BIA, creating uniform crash report forms for 
the use of tribes, modifying and increasing funding for tribal 
bridges and the Transportation Safety Fund, and increasing 
funding for the BIA Road Maintenance Program. I hope members of 
this Committee will support the bill.
    Before we hear from witnesses, I want to turn to the Vice 
Chairman, Senator Udall, for his opening statement.

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Thank you, Chairman Hoeven, for scheduling 
today's hearing to discuss tribal transportation.
    I would first like to welcome my good friend from New 
Mexico, Head Councilman Joe Garcia of Ohkay Owingeh Pueblo. It 
is good to see you here today, Joe.
    Councilman Garcia wears many hats with his various 
leadership roles and brings a wealth of knowledge to our 
hearing, not only when it comes to transportation but also as a 
strong leader for self-governance, veterans, housing, economic 
development and many other matters across Indian Country. 
Councilman Garcia, I appreciate your being here and look 
forward to your testimony.
    As Congress begins its work on reauthorizing the multi-year 
transportation bill set to expire in 2020, known as the FAST 
Act, we must begin by acknowledging what tribal communities 
across the Country know all too well. Indian Country lacks safe 
and adequate surface transportation infrastructure.
    As the Government Accountability Office has determined, 
``Tribal transportation data does not accurately reflect road 
conditions or maintenance needs and associated costs'' and 
consequently, stifles our ability in Congress to make informed 
funding decisions. The bottom line is that the Federal 
Government must do more to provide the necessary resources to 
ensure Native communities' transportation needs are addressed 
so that they can get to their jobs, homes, hospitals and 
schools. We need the data at the Federal, State and tribal 
levels to support those needs.
    However, providing more funding to build and maintain basic 
infrastructure in Indian Country is only part of the story. 
Ensuring tribal governments are able to make their own 
decisions to implement their own priorities is equally 
important.
    The 2015 FAST Act authorized for the first time a 638 
contracting authority for the Department of Transportation's 
Tribal Transportation Program. The primary goal of DOT's Tribal 
Transportation Self-governance Program is to deliver 
infrastructure projects faster and in a more cost-effective way 
to tribal communities. I am confident the program is on the 
road to success.
    In addition to self-governance, road safety is a top 
priority for Indian Country, especially when it comes to 
student attendance. A 2015 GAO study found that poor road 
conditions on Indian lands contribute to higher absenteeism 
rates for Indian students than non-Indian students in large 
part because many Indian students' homes are only accessible by 
dirt and gravel roads that have become impassable during bad 
weather.
    For example, tribal officials from the Cheyenne River Sioux 
Tribe recently reported to my staff that their students must 
get off the bus and wait by the side of the road so that the 
driver can traverse a particularly dangerous section of road 
without students onboard. Stories like this one are all too 
common in Indian Country.
    Indian students already face a number of challenges gaining 
equitable access to educational opportunities. The last thing 
they should be worried about is their personal safety on their 
way to school. We must do better to break down these barriers.
    Finally, the link between climate change and poor and 
deteriorating road conditions in Indian Country cannot be 
ignored. Indian Country's surface transportation infrastructure 
needs must include tools for ensuring climate resiliency so 
that tribal transportation inventory is built to last.
    I look forward to hearing from today's witnesses and asking 
questions on these important topics. Again, thank you, Mr. 
Chairman, and thank you to the panel for being here today.
    The Chairman. Thank you, Vice Chairman Udall.
    At this point, we will proceed to our witnesses. Today, we 
have Mr. Timothy Hess, Associate Administrator, Federal Lands, 
Federal Highway Administration, U.S. Department of 
Transportation; Mr. Leroy Gishi, Chief, Division of 
Transportation, Bureau of Indian Affairs, U.S. Department of 
the Interior; The Honorable Stephen Roe Lewis, Governor, Gila 
River Indian Community, Sacaton, Arizona; and The Honorable Joe 
Garcia, Head Councilman, Ohkay Owingeh Pueblo Council, Ohkay 
Owingeh, New Mexico. Welcome to you all.
    I want to remind witnesses that your full written testimony 
will be made a part of the official hearing record. Please keep 
your statements to five minutes so that we have time for 
questions.
    With that, we will turn to Mr. Hess.

  STATEMENT OF TIMOTHY HESS, ASSOCIATE ADMINISTRATOR, FEDERAL 
   LANDS, FEDERAL HIGHWAY ADMINISTRATION, U.S. DEPARTMENT OF 
                         TRANSPORTATION

    Mr. Hess. Chairman Hoeven, Vice Chairman Udall, and members 
of the Committee, thank you for the opportunity to appear 
before you today to discuss enhancing tribal self-governance 
and safety on Indian roads.
    I am pleased to appear beside Mr. Leroy Gishi of the Bureau 
of Indian Affairs, Mr. Stephen Roe Lewis of the Gila River 
Indian Community, and Mr. Joe Garcia of the Ohkay Owingeh 
Pueblo Council.
    The Federal Highway Administration has a long history of 
working closely with tribal governments and with the Bureau of 
Indian Affairs. I am proud of the relationships we have built.
    We are committed to continued partnership with tribes to 
continue to address their transportation needs. Through funding 
and technical assistance, we are committed to delivering a 
transportation program that works for all tribes no matter 
their size.
    I would like to take this opportunity to update you on the 
Department's work to establish the Tribal Transportation Self-
governance Program. This program was created by the FAST Act 
and authorizes the Department to establish a new option for 
tribes to receive transportation funding via a compact and 
funding agreement with the Department of Transportation. The 
Department has been engaged with tribal leaders to develop to 
the maximum extent possible a consensus, self-governance 
regulation that adequately addresses the concerns of the 
Federal Government and tribal leaders.
    I am pleased to report that we have made significant 
progress. In mid-2016, we convened a negotiated rulemaking 
committee comprised of 18 tribal and 7 Federal representatives. 
This Committee has met ten times, most recently just over two 
weeks ago, to develop recommendations and propose regulatory 
text for consideration by the Secretary. The Department is 
hopeful that the Committee will be able to finalize its work 
for the Secretary's consideration following the next meeting 
this June.
    I would also like to address the Department's top priority, 
safety. The Federal Highway Administration is committed to 
enhancing transportation safety for tribal communities and will 
continue to work with our tribal partners, the BIA, Federal 
agencies, States and other public organizations to identify and 
implement solutions to address this vital issue.
    Tribal transportation facilities are essential to providing 
safe and adequate transportation to and within tribal land. 
FHWA administers a number of programs that support these 
facilities. As one example, the Federal Highway 
Administration's largest Federal Lands Highway Program, the 
Tribal Transportation Program, TTP, provides funding to improve 
transportation for all 573 federally-recognized sovereign 
tribal governments.
    We jointly administer this program with the BIA and work 
together to partner with tribes and provide training and 
technical assistance. In addition to providing general 
technical assistance on tribal transportation issues and 
training at various meetings and conferences, FHWA has a tribal 
coordinator assigned to each tribe that has a Tribal 
Transportation Program Agreement with FHWA. These tribal 
coordinators perform on-site visits to tribes to provide 
technical assistance on elements of the TTP as well as to help 
the tribes in developing transportation improvement plans for 
their tribal communities.
    One component of the TTP is the TTP Safety Fund. The Tribal 
Transportation Program's Safety Fund makes funds available to 
tribes through a competitive discretionary program. The TTPSF 
emphasizes safety and the development of transportation safety 
plans which are critical tools in determining how to best 
address tribal transportation safety needs.
    Another component of the TTP is the Tribal Transportation 
Bridge Program. This program addresses the important issue of 
bridge safety by providing resources for bridge projects.
    TTP funds provided through statutory formula are available 
to tribes for general tribal transportation needs but can also 
be used to address specific tribal transportation safety 
projects. For example, the Citizen Potawatomi Nation in 
Oklahoma, using TTPSF funds and Tribal Transportation Program 
tribal shares, designed and constructed a pedestrian pathway 
providing safety access between the tribal area and the nearby 
City of Shawnee. Safety is of paramount importance to the 
Federal Highway Administration and we appreciate Congress's 
recognition of the need to address tribal transportation 
safety.
    Mr. Chairman, thank you again for the opportunity to appear 
before you today and your commitment to tribal self-governance 
and transportation safety.
    I look forward to answering your questions.
    [The prepared statement of Mr. Hess follows:]

 Prepared Statement of Timothy Hess, Associate Administrator, Federal 
       Lands, Federal Highway Administration, U.S. Department of 
                             Transportation
    Chairman Hoeven, Vice Chairman Udall, Members of the Committee, 
thank you for the opportunity to appear before you today to discuss 
enhancing Tribal self-governance and safety on Indian roads. The 
Federal Highway Administration (FHWA) has a long history of working 
closely with Tribal governments, and I am proud of the relationships 
that we have built. We are committed to partnering with Tribes to 
address their transportation needs. I would like to update you on a 
number of efforts we have underway.
Tribal Self-Governance
    The Department of Transportation (Department) is working to 
establish the Tribal Transportation Self-Governance Program created by 
section 1121 of the Fixing America's Surface Transportation (FAST) Act. 
This program will establish a new option for Tribes to receive 
transportation funding via a compact and funding agreement negotiated 
between the Department and an eligible Tribe that elects to participate 
in the self-governance program. The Department of the Interior and the 
Indian Health Service already have self-governance programs. However, 
because the Department does not carry out services or activities on 
behalf of, or for the benefit of, Indian Tribes, the focus of the 
rulemaking to implement the program has been on eligibility, internal 
Departmental operations to provide flexibility and alleviate 
administrative burdens, and implementing those provisions of the Indian 
Self-Determination and Education Assistance Act that address self-
governance, while acknowledging the Department's inherently Federal 
functions.
    We have made significant progress in implementing this program, 
consistent with our goal to provide maximum participation of Tribes in 
the development and management of transportation programs on Tribal 
lands. To date, the Department has preliminarily identified a large 
number of formula-funded, discretionary, and competitive grant programs 
that may be included in a self-governance annual funding agreement. The 
Department recognizes the sovereignty of Tribal governments and 
respects Indian self-determination and Tribal self-governance. The 
Department is committed to upholding the Federal Government's unique 
trust responsibility by honoring the government-to-government 
relationship between the United States and federally recognized Indian 
Tribes. The Department's goal is to continue to engage Tribal leaders 
to develop, to the maximum extent possible, a consensus self-governance 
regulation that adequately addresses the concerns of the Federal 
Government and Tribal leaders.
Negotiations
    In mid-2016, the Department began to implement the congressional 
directive to promulgate regulations to carry out a Tribal 
transportation self-governance program by convening a negotiated 
rulemaking committee composed of 18 Tribal and seven Federal 
representatives. The rulemaking committee met five times in 2016, four 
times in 2018, and will meet twice in 2019 to develop recommendations 
and proposed regulatory text for consideration by the Secretary.
    Following enactment of H.R. 6414 (Public Law 115-235), which 
extended the statutory deadlines for rulemaking, the Department engaged 
the services of facilitators from the Federal Mediation and 
Conciliation Service (FMCS) to assist the committee in its 
negotiations. The committee agreed to focus its efforts on discussing 
goals, intent, and concerns related to the program and its 
implementation, while charging a smaller, drafting work group to 
develop recommended language for consideration by the full committee. 
The FMCS is also facilitating the work of this drafting group. Most 
recently, the drafting group met in February 2019, and the committee 
has empowered the drafting group to develop the remainder of the rule 
using this process.
    The drafting group will meet three times over the next two months 
to develop additional recommended language for the committee's 
consideration, and the proposals will be previewed for committee 
members following each drafting group meeting. There will be an 
additional plenary meeting in June 2019 to present revised proposals 
for consideration by the full committee. Pending the outcome of this 
meeting, the Department expects to issue a proposed rule later this 
summer.
    The Department notes that following enactment of H.R. 6414 in 
August 2018, Congress extended to June 4, 2019, the statutory deadline 
for the Department to issue a proposed rule. The Department anticipates 
that, with the consent of the rulemaking committee, it may have to 
invoke a 180-day extension to issue the proposed rule. If that occurs, 
the Department will notify Congress.
Safety On Indian Roads
    Safety is the Department's top priority and I am committed to 
enhancing transportation safety for Tribal communities. As stated in 
the August 2017 Tribal Transportation Strategic Safety Plan, prepared 
by the Tribal Transportation Safety Management System Steering 
Committee, despite known underreporting, data from the Fatality 
Analysis Reporting System (FARS) showed 3,278 available fatality 
reports in Tribal areas during the five-year period from 2010-2014. 
This is not acceptable. We must improve transportation safety in Tribal 
areas. FHWA is committed to working with our Tribal partners, the 
Bureau of Indian Affairs (BIA) and other Federal agencies, States, and 
other public organizations to identify and implement solutions to 
address this important issue.
FHWA Programs
    Tribal transportation facilities are essential to providing safe 
and adequate transportation to and within Tribal land. A number of FHWA 
programs support Tribal transportation. Some examples are detailed 
below.
Tribal Transportation Program
    The Tribal Transportation Program (TTP) provides funding for 
projects to provide safe and adequate transportation and public road 
access to and within Indian reservations, Indian lands, and Alaska 
Native Village communities. The TTP provides funding to improve 
transportation for all 573 federally-recognized sovereign Tribal 
governments and is the largest Federal Lands Highway program. The 
program is jointly administered by FHWA and the BIA. We work together 
to partner with Tribes and provide robust training and technical 
assistance to support Tribes in enhancing Tribal transportation.
    In addition to promoting safety, the TTP contributes to the 
economic development, self-determination, and employment of Indians and 
Native Americans. While the vast majority of TTP funds are distributed 
to Tribes via Tribal shares determined by statutory formula, the 
program includes a set-aside for the TTP Safety Fund (TTPSF), which 
makes funds available to Tribes through a competitive, discretionary 
program. The TTPSF supports the Department's safety priority and 
emphasizes the development of Transportation Safety Plans, which play a 
critical role in determining how to best address transportation safety 
needs. One example of the way TTPSF funds benefit Tribes is a project 
funded by the TTPSF and TTP Tribal shares. Using these funds, the 
Citizen Potawatomi Nation in Oklahoma designed and constructed a 
pedestrian pathway providing safety access between the Tribal area and 
the nearby city of Shawnee.
    In addition to the TTPSF set-aside, the TTP includes a set-aside 
for the TTP Bridge Program, which addresses the important issue of 
bridge safety by providing resources for planning, design, engineering, 
preconstruction, construction, and inspection of bridge projects. 
Tribes apply for these bridge funds, and, after a completed application 
package is received and accepted by FHWA, applications programmed for 
funding are placed in either a preliminary engineering or construction 
queue. Applications are ranked and prioritized based on established 
criteria and those applications not funded remain in the queue and 
carry over from fiscal year to fiscal year until funded.
    The TTP also includes a set-aside for Transportation Planning, 
which funds Tribal transportation planning activities. The stated 
purpose of transportation planning is to fulfill goals by developing 
strategies, including strategies to address public safety, to meet 
transportation needs.
    Not only has the TTP program improved safety, but it has also made 
infrastructure improvements in Tribal areas that are critical for 
survival. For example, the Gwich'in people who live in the Yukon Flats 
area of Alaska make a living from hunting and selling handicrafts. 
Their subsistence depends on these hunts, fishing, berry picking, and 
firewood gathering which was, just barely, facilitated by a bridge with 
a National Bridge Inventory (NBI) sufficiency rating of 4.8. The bridge 
was closed to all traffic in 2013, greatly impacting the Gwich'in 
people. However, because of an FHWA Accelerated Innovation Deployment 
grant and the TTP Bridge Program, it was replaced with a Geosynthetic 
Reinforced Soil bridge and reopened in October 2017.
Highway Safety Improvement Program
    The Highway Safety Improvement Program (HSIP) is a strategic, data-
driven program that improves safety on all public roads, including 
roads in Tribal areas. The program's purpose is to achieve a 
significant reduction in traffic fatalities and serious injuries. HSIP 
funds have been used for a number of safety-related projects in Tribal 
areas. For example, the Jamestown S'Klallam Tribe in Washington State 
made safety realignments to the intersection of US-101 and Chicken 
Coop-Zaccardo with a project that combined TTPSF funds and HSIP program 
funds.
Nationally Significant Federal Lands and Tribal Projects Program
    The Nationally Significant Federal Lands and Tribal Projects 
(NSFLTP) Program provides funding for the construction, reconstruction, 
and rehabilitation of nationally-significant projects within, adjacent 
to, or accessing Federal and Tribal lands. The Department published a 
Notice of Funding Opportunity for this competitive program in October 
2018 and is currently reviewing applications. Consistent with the 
statutory selection criteria established in the FAST Act, evaluation of 
applications for this program includes consideration of the extent to 
which the project furthers the goals of the Department, including 
safety.
Tribal Technical Assistance Program
    In addition to the programs described above, the Tribal Technical 
Assistance Program (TTAP) provides centralized delivery of highway-
related training, technical assistance, and technology transfer to 
Tribes. The TTAP operates five Virtual Centers of Excellence (CoE), 
each staffed with subject matter experts to provide training and 
technical assistance in their specialty areas. One of the five CoEs is 
specifically focused on safety. FHWA is committed to providing 
effective technical assistance to Tribes and is evaluating the 
centralized delivery model launched in 2018 over the course of a two-
year pilot. Through February 2019, a total of 2,609 training hours have 
been delivered under the pilot. This is a 60 percent increase over the 
five-year average of training hours delivered from 2012 through 2016.
    In addition to the programs described above, some Tribes have 
benefitted from State planning and investment decisions with a State's 
Federal-aid program funding. FHWA will continue to work with our Tribal 
partners as we administer these programs and work together to achieve 
enhanced safety for all Tribes.
Tribal Transportation Safety Reports to Congress
    Congress recognized the need to address Tribal transportation 
safety in the FAST Act. Section 1117 of the FAST Act directed the 
Secretary to: (1) submit to Congress a report describing the quality of 
transportation safety data collected by States, counties, and Indian 
Tribes for transportation safety systems and the relevance of that data 
to improving the collection and sharing of data on crashes on Indian 
reservations, and (2) complete a study that identifies and evaluates 
options for improving safety on public roads on Indian reservations and 
submit to Congress a report describing the results of the study.
Tribal Governments & Transportation Safety Data
    In order to evaluate the quality of transportation safety data, 
FHWA utilized a survey developed by the Tribal Transportation Safety 
Management Steering Committee (SMS Committee). FHWA has played a key 
leadership role in this committee, which it co-chairs with the BIA. The 
goal of the SMS Committee is to prevent and reduce fatalities and 
injuries associated with the use of Tribal transportation facilities. 
The SMS Committee members include representatives from Tribal 
governments and Federal agencies, including FHWA's Tribal 
Transportation Program, Office of Safety, and Resource Center.
    The survey developed by the SMS Committee was made available to all 
federally-recognized Tribes and the States in which those Tribes are 
located. The survey responses were analyzed to evaluate the quality of 
existing Tribal transportation safety data, opportunities for improved 
data collection, options for paperless reporting, and uses of crash 
data. Based on that analysis, in May 2017, FHWA delivered to Congress 
the report required pursuant to section 1117(b) of the FAST Act: Tribal 
Governments & Transportation Safety Data.
    As stated in the May 2017 report, many Tribes are not adequately 
represented in State and national crash databases that often drive 
policy, program, and project decisions because some crash data is not 
shared with State governments. Additionally, some incidents are 
undocumented. The report noted that Tribes and States identified 
several barriers inhibiting the sharing of crash data, including 
Tribal-State communication, resources required to collect and share 
crash data, and Federal policy for crash reports.
    The May 2017 report included many actions DOT agencies would take 
to improve the quality and availability of safety data in Tribal areas. 
Consistent with these recommendations, FHWA continues to accept any 
form of crash data from Tribes when evaluating applications for TTPSF 
grants and has encouraged Tribes to conduct a self-assessment of 
traffic records and submit the assessment with their grant applications 
if formal documentation of crashes is not available. FHWA also provides 
assistance as requested to encourage Tribal involvement in performance 
measure establishment.
    Additionally, in coordination with FHWA, NHTSA updated their 
Traffic Records Program Assessment Advisory to include multiple 
references to Tribal governments. This Advisory provides guidance on 
different assessment processes States may utilize to evaluate their 
State's highway safety data and traffic records system. The inclusion 
of references to Tribal governments in the Advisory will encourage new 
conversations about partnering with Tribes as States review their 
safety data systems. In addition to coordinating within the Department, 
FHWA is involved in ongoing coordination with the Department of the 
Interior (DOI) to address standardizing collection of crash data by DOI 
law enforcement and continues to work as part of the SMS Committee to 
improve Tribal transportation safety.
    FHWA will continue its efforts and partnerships to improve 
collection and sharing of safety data so that Tribes are better able to 
address safety issues through strategic safety planning and 
implementation. Improved data collection and sharing also has the 
potential to afford Tribes improved access to funding opportunities, as 
analysis of information available via State and national crash 
databases can inform project decisions, such as the selection of 
roadway safety improvements through the Highway Safety Improvement 
Program (HSIP).
Options for Improving Transportation Safety in Tribal Areas
    In August 2017, the SMS Committee published the Tribal 
Transportation Strategic Safety Plan (Safety Plan), addressing topics 
selected based on review of multiple data sources. Based on this plan, 
in January 2018, FHWA delivered to Congress the report required 
pursuant to section 1117(c) of the FAST Act: Options for Improving 
Transportation Safety in Tribal Areas. This report summarizes the 
topics addressed in the Safety Plan, separated into two categories: 
priority and additional topics. The priority topics are those which 
data indicates are national-level issues or which help establish data 
driven decisionmaking frameworks, while additional topics may be 
emerging issues or may be identified by a Tribe through analysis of 
incident history. The priority topics identified in the January 2018 
report are: (1) Transportation Safety Decision Making Process; (2) 
Crash Data Collection, Sharing, and Analysis; (3) Occupant Protection, 
Child Passenger Seats, and Helmets; (4) Roadway Departure; (5) Impaired 
Driving; (6) Pedestrians; and (7) Availability of Public Safety 
Services. In addition to identifying these priority topics, the report 
discusses strategies identified in the Safety Plan that Tribes may 
utilize to improve transportation safety, and recognizes that a Tribe's 
unique incident history and local knowledge may identify other priority 
areas for which other strategies should be considered.
    FHWA is promoting the priority topics identified in the January 
2018 report at regional and national conferences and encouraging Tribes 
to consider these topics as they develop and update Tribal 
Transportation Safety Plans. FHWA is committed to finding additional 
ways to encourage and assist Tribes with these topics and intends to 
partner through the SMS Committee to identify additional ways this can 
be accomplished.
    In addition to identifying priority topics and strategies to 
address them, the January 2018 report identifies general options for 
Federal agencies to improve transportation safety in Tribal areas. FHWA 
is already executing many of these recommended options, for example, by 
accepting the best available data when evaluating applications for 
TTPSF grants; fostering good relations and facilitating communication 
between Tribes and States; providing training, technical assistance, 
and resources to support Tribes in addressing safety issues; and 
continuing to actively collaborate with Tribal and Federal agency 
partners, including the BIA, in the SMS Committee. FHWA will continue 
to look for additional opportunities to partner with Tribes, the BIA 
and other Federal agencies, and other organizations to enhance Tribal 
transportation safety.
Conclusion
    Thank you again for the opportunity to appear before you today. I 
would be happy to answer any questions you may have.

    The Chairman. Thank you.
    Now we will hear from Mr. Gishi.

         STATEMENT OF LEROY GISHI, CHIEF, DIVISION OF 
        TRANSPORTATION, BUREAU OF INDIAN AFFAIRS, U.S. 
                   DEPARTMENT OF THE INTERIOR

    Mr. Gishi. Good afternoon, Chairman Hoeven, Vice Chairman 
Udall and members of the Committee. Thank you for inviting the 
Department of the Interior to provide testimony at this 
oversight hearing on the topic of enhancing tribal self-
governance and the safety of Indian roads.
    Transportation infrastructure continues to be a critical 
part of the well being of tribal and rural communities. One of 
the many barriers to economic development in Native communities 
is the lack of physical infrastructure.
    The Department and BIA remain committed to improving and 
adequately maintaining transportation systems to provide 
increased public safety and economic development opportunities 
in Indian communities. Safe roads are important when 
transporting people in rural areas, to and from schools, to 
local hospitals and for delivery of emergency services.
    I appreciate this opportunity to share with the Committee 
some of our accomplishments and also our concerns for tribal 
transportation as we work with tribal, local and Federal 
stakeholders in implementation of the Tribal Transportation 
Program.
    The BIA and FHWA within the Department of Transportation 
jointly administer the TTP. The BIA oversees the BIA Road 
Maintenance Program with the maintaining of BIA roads and 
transportation facilities.
    Since establishment of the Tribal Transportation Program in 
1982, the total Federal construction authorization for tribal 
transportation has exceeded $10 million. These investments have 
contributed greatly to the improvement of roads and replacement 
and rehabilitation of deficient bridges on or near tribal lands 
throughout Indian Country.
    The National Tribal Transportation Facility inventory is a 
listing of transportation facilities eligible for Federal 
program assistance. This inventory consists of over 156,000 
miles of public roads with multiple owners, including Indian 
tribes, the BIA, States, counties and local governments, as 
well as other Federal agencies.
    Over 62 percent of the eligible facilities are the 
responsibility of other public authorities. There remains a 
great and continuing need to improve the transportation systems 
throughout Indian Country. We believe Congress has viewed this 
as a joint responsibility, including not only Federal agencies 
but also State and local governments with transportation 
investments on or near American Indian and Alaska Native 
communities.
    Coordination among all new stakeholders is required in 
order to maximize available resources to address regional 
transportation needs. Tribes continue to invest their resources 
in transportation projects that are primarily the 
responsibility of other public authorities.
    This creates jobs and contributes to the economy of the 
local businesses that provide services and materials. 
Strengthening existing partnerships will continue to support 
the local economy and bring improved infrastructure to 
communities on or near Indian reservations and lands. An 
investment in tribal transportation is truly an investment in 
the local economy.
    The BIA Road Maintenance Program is responsible for 
maintaining roads designated in the inventory as BIA-owned. 
Today, of the 145,000 miles of existing roads in the inventory, 
the BIA has responsibility for approximately 29,000 miles of 
roads.
    In fiscal year 2018, the BIA distributed approximately $32 
million in tribal priority allocations for the administration 
and performance of road maintenance. BIA supports self-
determination and the empowerment of tribes by contracting out 
a significant portion of the program with tribes.
    Approximately 75 percent of the tribes with BIA system 
roads within their reservation boundaries currently carry out 
the BIA Road Maintenance Program through self-determination 
contracts and self-governance compacts. Approximately 17,000 
miles of the BIA system are unimproved earth surface roads; 
4,700 are gravel. The deferred maintenance in BIA roads is 
estimated at $390 million.
    The FAST Act was enacted in December 2015. The FAST Act has 
continued the statutory formula that was established under the 
previous MAP-21 authorization. Part of that authorization was 
determining a funding formula for tribal funding shares as well 
as planning.
    In addition, a setaside was established for the replacement 
and rehabilitation of tribal bridges and safety projects. This 
has allowed more funding to be directed directly to tribal 
priorities.
    The FAST Act formula continues to address the longstanding 
issues of competitive formula. There are still some 
implementation issues regarding application of certain data to 
calculation of tribal shares.
    For example, approximately 11 tribes do not have a recorded 
population within the mandated American and Alaska Native 
population database. We believe the rationale for considering 
this information was to provide another data element that 
reflected relative need of the eligible tribes not to limit 
funding to those tribes who do not have population data. Tribes 
with zero population as reported in the required database do 
not receive funding based on population, but can receive some 
consideration for funding under other elements of the formula.
    The FAST Act also included provisions requiring data 
collection and program performance. This has been very helpful 
in helping us to be able to begin the process of identifying 
the type of projects and the extent to which projects are being 
prioritized by tribes, information that until now we did not 
the opportunity to have.
    This is reported on an annual basis. We do have reporting 
on that for fiscal year 2016 through 2018.
    The BIA and the Department are committed to working with 
the Committee and members of Congress to address the 
transportation needs and share successes in Indian Country 
through our support of tribal transportation, road maintenance 
and other Title 23 programs.
    Thank you for this opportunity to present testimony on 
these issues as an important part of infrastructure, road 
safety, employment, and economic development needs in Indian 
Country.
    I will be happy to answer any questions, Mr. Chairman. 
Thank you.
    [The prepared statement of Mr. Gishi follows:]

 Prepared Statement of Leroy Gishi, Chief, Division of Transportation, 
       Bureau of Indian Affairs, U.S. Department of the Interior
    Good morning Chairman Hoeven, Vice Chairman Udall, and members of 
the Committee. Thank you for inviting the Department of the Interior 
(Department) to provide testimony at this oversight hearing on the 
topic of ``Enhancing Tribal Self-Governance and Safety of Indian 
Roads.'' My name is LeRoy Gishi, and I am the Chief of the Division of 
Transportation for the Bureau of Indian Affairs (BIA) at the 
Department.
    Transportation infrastructure continues to be a critical part of 
the well-being of tribal and rural communities. One of the many 
barriers to economic development in Native Communities is the lack of 
physical infrastructure. The Department and the BIA remain committed to 
improving and adequately maintaining transportation systems to provide 
increased public safety and economic development opportunities in 
Indian communities. Safe roads are important when transporting people 
in rural areas to and from schools, to local hospitals, and for 
delivering emergency services. I appreciate this opportunity to share 
with the Committee some of our accomplishments and also our concerns 
for tribal transportation as we work with tribal, local and federal 
stakeholders in the implementation of the tribal transportation 
program.
Overview
    The BIA and the Federal Highway Administration within the 
Department of Transportation (FHWA) jointly administer the Tribal 
Transportation Program (TTP). The BIA alone oversees the BIA Road 
Maintenance Program (RMP) for the maintenance of BIA roads and 
transportation facilities.
Tribal Transportation Program
    The Surface Transportation Assistance Act of 1982 established the 
Indian Reservation Roads (IRR) Program funded within FHWA's Federal-aid 
account. Since the establishment of the IRR Program, which is now 
called the Tribal Transportation Program (TTP) and subsequent 
transportation authorizations, the total Federal construction 
authorization for Tribal Transportation has exceeded $10 billion. These 
investments have contributed greatly to the improvement of roads and 
the replacement or rehabilitation of deficient bridges on or near 
tribal lands throughout Indian Country.
    We have provided updated information on the National Tribal 
Transportation Facility Inventory (NTTFI) in previous testimony before 
this Committee. The NTTFI consists of over 156,000 miles of public 
roads with multiple owners, including Indian tribes, the BIA, states, 
counties and local governments, as well as other Federal agencies. Of 
this amount, approximately 10,800 miles are planned or proposed roads 
of varying surface types and uses. There remains a great and continuing 
need to improve the transportation systems throughout Indian Country. 
We believe Congress has viewed this as a joint responsibility including 
not only Federal agencies, but also state and local governments with 
transportation investments in or near American Indian and Alaska Native 
communities. Coordination among all of these stakeholders is required 
in order to maximize available resources to address regional 
transportation needs. Tribes continue to invest their resources in 
transportation projects that are primarily the responsibility of other 
public authorities. This creates jobs and contributes to the economy of 
local businesses that provide services and materials. Strengthening 
existing partnerships will continue to support the local economy and 
bring improved infrastructure to communities on or near Indian 
reservations and lands. An investment in tribal transportation is truly 
an investment in the local economy.
NATIVE Act
    During our response to the highway legislation, the Intermodal 
Surface Transportation Efficiency Act of 1991 (ISTEA), we recognized 
the importance of our Nation's transportation infrastructure to 
recreational travel, tourism and trade, and our ability to compete in 
the global marketplace. The work with ISTEA was an opportunity for BIA 
and the tribes to participate in the dialog and have a say in the 
execution of transportation programs. This participation is crucial to 
developing economic growth, as it is closely tied to access to 
transportation and related infrastructure. Building on the ISTEA, the 
Native American Tourism and Improving Visitor Experience Act (NATIVE 
Act) became law in September 2016. It requires federal agencies with 
recreational travel or tourism functions to update their management 
plans and tourism initiatives to include Indian tribes, tribal 
organizations, and Native Hawaiian organizations.
    The Department, through the BIA, is recognized along with the 
Department of Commerce (Commerce) as a lead in the coordination with 
federal agencies. In September 2018, the BIA, Commerce and the American 
Indian and Alaska Native Tourism Association (AIANTA) signed an 
historic memorandum of understanding outlining the roles of each in the 
implementation of the NATIVE Act. Over the last several months, the BIA 
and AIANTA have entered into a cooperative agreement to further develop 
American Indian Alaska Native and Native Hawaiian tourism. For over 20 
years, the BIA has invested resources toward the development of 
technical assistance and training for tribal tourism development 
through the establishment of the American Indian Tourism Conference in 
1999 and AIANTA. AIANTA has become a voice for Indian Country to the 
tourism industry and is successfully helping tribal communities to 
realize their potential in the global tourism industry. Tribes deserve 
the ability to provide visitors with reasonable transportation access 
and safety to their rural homelands and to share their history and 
culture with the travelling public through transportation enhancements 
such as context sensitive design, interpretive signage, informational 
kiosks, and scenic byways.
BIA Road Maintenance
    Unlike the TTP, which is funded by the Department of Transportation 
and jointly administered by BIA and FHWA, the BIA Road Maintenance 
Program is funded by the Department of the Interior and overseen by BIA 
alone. The BIA Road Maintenance Program has traditionally been 
responsible for maintaining only roads designated as BIA-owned. Today, 
of the 145,400 miles of existing roads in the NTTFI, the BIA has 
responsibility for approximately 29,100 miles of roads designated as 
BIA system roads. For FY2018 the BIA distributed approximately $32.6 
million in Tribal Priority Allocation (TPA) funding for the 
administration and the performance of the road maintenance program.
    BIA supports self-determination and the empowerment of tribes by 
contracting out a significant portion of the program with tribes. 
Approximately 75 percent of tribes with BIA system roads within their 
reservation boundaries currently carry out the BIA Road Maintenance 
Program through self-determination contracts or self-governance 
compacts. Approximately 17,130 miles of the BIA system roads are 
unimproved and earth surface roads, and 4,720 roads are gravel 
according to the FY 2020 BIA Congressional Budget Justification 
released earlier this month. The FY2018 deferred maintenance for BIA 
roads was estimated at $392 million.
FAST Act
    Fixing America's Surface Transportation Act, P.L. 114-94 (FAST 
Act), was enacted on December 4, 2015, with retroactive effect to the 
beginning of FY2016. The FAST Act continued the new statutory formula 
established under the Moving Ahead for Progress in the 21st Century 
Act, P.L. 112-141 (MAP-21) for determining tribal shares and 
transportation planning shares for tribal governments. In addition, a 
set-aside was established for the replacement and rehabilitation of 
deficient tribal bridges and for safety projects for applying tribes. 
The statutory funding formula was carried forward in the FAST Act with 
authorized amounts starting at $465 M in FY2016 to $505 M in FY2020. 
This has allowed more funding to be directed to tribal priorities.
    The FAST Act formula has addressed the long standing issue of a 
competitive formula, but there are still some implementation issues 
regarding the application of certain data to the calculation of tribal 
shares. As an example, approximately 11 tribes do not have a recorded 
population within the statutorily mandated American Indian and Alaska 
Native population within each Indian tribe's American Indian/Alaska 
Native Reservation or Statistical Area, as computed under the Native 
American Housing Assistance and Self-Determination Act (NAHASDA) of 
1996 (25 U.S.C. 4101 et seq.). We believe the rationale for considering 
this information was to provide another data element that reflected 
relative need due to tribal population of the eligible tribes, not to 
limit funding to those tribes who do not have population data. The use 
of default minimum or alternate data such as the BIA Labor Force Report 
in addition to the NAHASDA based values to make allocations would help 
to provide some equality to tribes that are currently disadvantaged by 
use of the NAHASDA statistic.
    Tribes with zero population, as reported in NAHASDA, do not receive 
funding based on population but they do receive some consideration for 
funding under the other elements of the formula including total 
eligible road mileage as of 2004, and the ratio of the average of the 
share percentage from fiscal years 2005 through 2011 as compared to the 
amount for all tribes within the particular BIA Region. Tribes that 
have recently been federally recognized and any tribes recognized in 
the future may receive little or no funding because they do not have a 
population recorded in the NAHASDA database nor will they have any 
eligible miles recorded in the 2004 inventory or the 2012 inventory 
update. Additionally, these tribes do not have a history of funding as 
required by the third element of the formula. This combination of data 
deficiencies generally results in no funding being made available for 
their transportation needs.
    The FAST Act also included new provisions at 23 USC 201 (c)(6)(C) 
requiring data collection on program performance. Regardless of 
contract or agreement type, within 90 days of the end of each fiscal 
year all entities carrying out the TTP must submit data identifying the 
names, description and status of projects and activities, along with 
the number of jobs created and jobs retained as result of the reported 
projects and activities.
Conclusion
    The Bureau of Indian Affairs and the Department are committed to 
working with this Committee and others in Congress to address the 
transportation needs and share successes in Indian Country through our 
support for the Tribal Transportation Program, the Road Maintenance 
Program, and other Title 23 funding provided for transportation in 
Indian Country.
    Thank you for the opportunity to present testimony on an issue that 
is an important part of the employment, economic infrastructure and 
roads safety for tribes. I will be happy to answer any questions you 
may have.

    The Chairman. Thank you, Mr. Gishi.
    Now we will turn to Governor Lewis.

   STATEMENT OF HON. STEPHEN ROE LEWIS, GOVERNOR, GILA RIVER 
                        INDIAN COMMUNITY

    Mr. Lewis. [Greeting in Native language.] Good afternoon, 
Chairman Hoeven, Vice Chairman Udall, Senator McSally and 
distinguished members of the Committee.
    I am Stephen Roe Lewis, Governor of the Gila River Indian 
Community. I want to thank you for the opportunity to testify 
today regarding ways to enhance tribal self-governance and 
safety on Indian Roads.
    Tribal transportation is an important issue across Indian 
Country. I have made it a priority in my administration. These 
roads carry our tribal citizens, members of our local 
community, our school children, our elders, law enforcement and 
emergency services, and patrons to our businesses.
    The transportation programs at Gila Rive are representative 
of what you see across Indian Country. Our reservation is a 583 
square mile, rural island, but our southern boundary borders 
the Phoenix metropolitan area.
    The reservation contains a combination of BIA, tribal, 
county, township and State roads. This means our transportation 
needs are both rural and urban. Our location requires a great 
deal of collaboration, partnership and respect with the State 
and local counties.
    The community took over Federal functions that were 
previously performed by the BIA and the Department of 
Transportation through self-governance compacts. Taking over 
those functions has allowed the community to build our own 
Department of Transportation that has grown to a staff of 45 
which oversees the planning, realty and right-of-way, 
construction, engineering, road maintenance, and transit 
functions on the reservation's 420 miles of roads and 67 
bridges.
    This arrangement has allowed the community to exercise more 
self-governance and more sovereignty over its transportation 
priorities and planning but still requires a high level of 
coordination with the U.S. Department of Transportation, the 
BIA, State and counties.
    One of the areas where that cooperation has been critical 
has been in addressing the community safety plans. The Gila 
River Indian community was the first tribe in Arizona to 
prepare a tribal safety plan framework.
    To develop this plan, the community conducted workshops and 
included other stakeholders such as the Federal Highway 
Administration, the Arizona Department of Transportation, the 
BIA, the Intertribal Council of Arizona, the Maricopa 
Association of Governance, the Arizona Department of Public 
Safety, the Indian Health Service and community departments 
such as our police department, emergency services and injury 
prevention programs.
    We have since also conducted a multi-modal pedestrian 
safety study. These studies have allowed the community to 
prioritize road construction, safety projects, work with 
external partners and create a long term plan to address the 
safety needs of our tribal citizens and those who use our 
roadways.
    Another important component of our safety plan is sharing 
crash and safety data with the State. Arizona encourages all of 
the law enforcement agencies within the State to share data, 
including tribal law enforcement. This data sharing allows all 
of the governments, tribal, State, and county, to be more 
targeted in their funding requests and more strategic in their 
law enforcement prevention and educational outreach programs.
    While collaboration with State and local governments is 
key, adequate funding is also required. Increases are 
critically needed in funding directly to tribes for 
transportation, safety, transit and road maintenance programs.
    The community has 306 BIA roads within the reservation and 
receives funding of only $3 million per year for maintenance of 
those roads. To put it directly, this is approximately $9,771 
per road for maintenance which is wholly inadequate. That is 
just for the Gila River Indian Community.
    The total deferred maintenance for BIA roads is nearly $300 
million and growing because of the poor condition of many of 
those roads. Senators, this is a strict government-to-
government relationship priority that needs to be taken care 
of. This is also a fundamental responsibility, a trust 
responsibility the Federal Government has for all tribes 
throughout Indian Country.
    The Community also recommends increased attention to tribal 
funding for large scale transportation infrastructure projects. 
The Community and State have recently reached agreement to work 
together to address the improvement needs of the 20 miles of 
Interstate 10 that runs through the reservation.
    While the State and tribes are working together now, tribes 
are dependent on a willing partner in the State for projects of 
this size because, with few exceptions, funding goes directly 
to States for large scale, multi-jurisdictional projects with 
no money left over for critical tribal projects.
    The Community recommends grants such as the Build grant 
contained in the Fast Act to include a specific allocation for 
tribal projects. In 2018, a total of $1.5 billion in Build 
grant funding was awarded to 91 projects in 49 States and the 
District of Columbia. Out of those awards, only one, only one 
went to a tribe. That grant amount was $15 million.
    In 2018, 30 percent of Build grants were required to go 
towards rural projects. That amount increases to 50 percent in 
2019. We recommend, we strongly recommend a certain percentage 
of those grants should be designated exclusively for tribal 
projects and applications where tribes, States and counties are 
working together on large scale projects.
    Again, thank you for the opportunity to discuss the Gila 
River Indian Community's transportation program on enhancing 
self-governance and safety in tribal communities. This is a 
critical need in Indian Country.
    I am happy to answer any questions you may have. Thank you.
    [The prepared statement of Mr. Lewis follows:]

  Prepared Statement of Hon. Stephen Roe Lewis, Governor, Gila River 
                            Indian Community
    Chairman Hoeven, Vice Chairman Udall and Members of the Senate 
Committee on Indian Affairs, I want to thank you for holding this 
hearing on ``Enhancing Tribal Self-Governance and Safety on Indian 
Roads.'' Safe and adequate transportation infrastructure is not only 
critical for members of the Gila River Indian Community (``Community'') 
and others who utilize our roadways, but also for economic development 
and other governmental functions. We appreciate the Committee holding 
this hearing to ensure that tribal transportation needs are considered 
in the broader conversations occurring nationally around 
reauthorization of the Fixing America's Surface Transportation Act 
(``FAST Act'') and infrastructure development.
Background On Tribal Transportation
    The latest long-term surface transportation reauthorization, the 
FAST Act, was signed into law on December 4, 2015. This Act provides 
$305 billion in funding for surface transportation infrastructure 
through fiscal year 2020, when it is set to expire. Specific to tribal 
transportation, the FAST Act reauthorized the Tribal Transportation 
program and provided for increased funding for that program from $450 
million in 2015 to $465 million in 2016 with step increases of $10 
million per year, reaching $505 million in fiscal year 2020. The FAST 
Act also placed a focus on tribal safety funding and reporting and 
allocated specific funding for tribal planning and bridge maintenance. 
With this surface transportation reauthorization set to expire in 2020, 
there is a renewed focus on how to build on the gains in the last 
reauthorization and ensure that tribal governments have the resources 
they need to provide safe and efficient transportation for their 
members, residents of surrounding communities, and to promote 
development both on and off tribal lands.
Gila River Indian Community Transportation Program
    The Community's Reservation abuts the southern boundary of the 
Phoenix Metropolitan Area, and is located in the first and third most 
populated counties in Arizona--Maricopa County (4.3 million), and Pinal 
County (430,000). The Community's Reservation is a 583.7 square mile 
rural island with the Phoenix-Metro to its north and Phoenix-Metro 
exurbs to its south and east. Approximately 15,000 of the Community's 
23,000 members live on our Reservation. The Community's proximity to 
the sixth largest metropolitan area in the country, combined with a 
sizeable land base, require its transportation programs to address 
transportation needs associated with both a rural and a metropolitan 
area. This location also means that planning for tribal transportation 
programs and significant projects must be done in conjunction with the 
local municipalities and the state given that a 20 mile stretch of 
Interstate 10 crosses the Reservation and five state highway routes are 
located on the Reservation.
    In 1997, the Community established the Gila River Indian Community 
Department of Transportation (GRIC DOT) which has grown to a staff of 
45. GRIC DOT oversees the administrative, planning, engineering, 
surveying, rights-of-way, construction, operations and maintenance 
activities on the Reservation. GRIC DOT is responsible for the 
Community's road inventory which consists of approximately 420 miles of 
roads and 67 bridges. Of the 420 miles, the majority are Bureau of 
Indian Affairs (BIA) roads (306.7), with the rest tribal, county and 
township and state roads.
    In 2003, the Community entered into a self-governance compact with 
the BIA to take over those functions that the BIA was performing. In 
2009, the Community entered into an agreement with the U.S. Department 
of Transportation, Federal Highway Administration to take over roads 
activities for all BIA and Community-owned roads within the 
Reservation, including planning, research, design, engineering, 
construction and maintenance of highway, road, bridge, parkway or 
transit facility programs or projects located on the Reservation or 
which provide access to the Community's Reservation. This agreement 
still requires a level of coordination with the BIA, but allows the 
Community to determine its own priorities through its five-year 
transportation plan, which is approved by Council. In taking over those 
programs previously performed by the federal agencies, the Community 
has been able to be more strategic and purposeful in its transportation 
planning.
    Although the majority of the Community's funding comes through the 
U.S. Department of Transportation, maintenance of the BIA roads within 
the Reservation is still funded through the BIA. The shortfall in 
maintenance funding for BIA roads nationwide is well documented with 
the current deferred maintenance estimated at nearly $300 million. The 
Community also faces a maintenance backlog on the BIA roads within the 
Reservation. With approximately 307 BIA roads to maintain and an annual 
allocation of $3 million, each mile of BIA road receives approximately 
$9,771 for maintenance.
    This level of funding is highly inadequate to maintain roads that 
are considered in good shape. Unfortunately, the BIA roads on the 
Community's Reservation have been neglected for decades. At the wholly 
inadequate current funding levels all the Community is able to do is 
maintain roads that are in poor shape. It is analogous to putting a 
band aid over a pothole and expecting it to create a safe mode of 
transportation for tribal and non-tribal citizens who utilize those 
roads.
    GRIC DOT also operates Gila River Transit which is funded through 
tribal funds and Rural Transit Program funds administered by the 
Arizona Department of Transportation (ADOT). The transit staff includes 
five full-time employees--one administrator and 4 bus operators and 
provides shuttle services in Sacaton which serves District 3 and the 
West End which services Districts 6 and 7. Ridership in the transit 
program has steadily increased from the first grant year in 2016 with 
the Sacaton transit going from 7,800 riders in 2016 to 16,714 in 2018. 
The West End ridership increased from 2,277 in 2016 to 8,346 in 2018. 
In September of 2018, GRIC DOT received its second two year funding 
award from ADOT's rural transit program and receives approximately 
$304,000 annual to operate the transit system. Given it takes 
approximately two to three years for a transit route to mature, the 
ridership numbers for these two routes is impressive.
    The Community would like to continue to add more routes to its 
transit service, but limited funding directed towards tribal 
governments and increased competition for rural transit funds can bring 
uncertainty when tribes are investing in much needed transit systems 
for their citizens.
Safety
    Transportation safety is a critical issue affecting tribal 
communities. Motor vehicle crashes are the leading cause of 
unintentional death for American Indians and Alaska Natives with 
fatalities more than twice that of other races for adults and eight 
times higher among infants less than one year of age.
    In the FAST Act, 2 percent of the funding allocated for the Tribal 
Transportation Program is eligible to be used for tribal safety. The 
funds are allocated under a discretionary, competitive grant program 
for projects that will address prevention and reduction of 
transportation related activities such as motor vehicle crashes. These 
grants can also be used to develop and update transportation safety 
plans, improve collection of, assessment and analysis of crash data, 
and for infrastructure improvements. While this funding is a positive 
step forward, the amount remains seriously deficient for the safety 
needs in Indian Country. Despite acknowledging that tribal citizens are 
the most impacted population by motor vehicle crashes, lack of 
available and accessible data is often cited as the reason more funding 
is not available.
    Therefore, the FAST Act required a report to Congress on Tribal 
Governments and Transportation Safety Data with the goal of improving 
data collection and sharing among tribes and other jurisdictions to 
improve transportation policies, funding and data collection systems. 
Some of the major recommendations were to bring increased coordination 
and consistency in how data is collected among tribes and federal 
entities.
    In Arizona, the state encourages all of the law enforcement 
agencies within the state to share data, including tribal governments' 
law enforcement. The Community has been sharing crash data with the 
state and county for the past several years in an effort to ensure that 
those incidents that occur on, or near the Reservation are recorded. 
This allows the Community to identify those roadways and areas that 
require safety features and also offers the opportunity to ensure those 
safety projects are not only on the tribal transportation plan, but 
also have the data to show why the state should provide resources to 
improve safety.
    One example of the Community benefiting from sharing safety data 
with state and local jurisdictions is the project on State Route 87 
which runs through Districts 1, 2, and 4. This route was identified as 
needing additional safety infrastructure based on the number of 
fatalities that have occurred. Following a study of the safety needs, 
and in partnership with ADOT, additional turn lanes were constructed at 
15 intersections on State Route 87 and other measures were taken 
including new signage, surface treatment, a centerline rumble strip and 
new pavement markings.
    The continued collection of crash data determined that there are 
still three areas in need of additional safety measures--the 
intersections of State Route 87 and Gilbert, Sacaton & Olberg roads. 
These intersections are located within the Reservation and have been 
the site of a number of fatal and incapacitating intersection related 
crashes. ADOT has determined that this project is eligible for funding 
under the Highway Safety Improvement Program funding. Therefore, three 
traffic signals will be place at these three intersections. This type 
of project is typical of those that require multi-jurisdictional 
cooperation based on state, county, federal, tribal and BIA roads all 
running through the Reservation, where the at-risk-site is on the 
Reservation, but must be on the State's Transportation Plan in order to 
received funding approvals.
    Aside from allowing for more targeted funding requests, the 
Community's decision to share data with the State also allows for more 
targeted law enforcement in those areas that are highest risk and for 
more strategic educational outreach to the Community on the effects of 
seat belt usage, speeding, drinking and driving, and impaired driving.
    Tribal Safety Plan--The Community was the first tribe in Arizona to 
prepare a tribal safety plan framework. As of 2013, no tribe in Arizona 
had a safety plan which made it difficult for them to collaborate with 
ADOT and local municipalities on tribal safety. In conjunction with the 
Intertribal Council of Arizona, the Community developed a tribal safety 
plan framework that ultimately led to a Tribal Safety Plan approved by 
the Community Council.
    To develop the Tribal Safety Plan Community workshops were 
conducted with other stakeholders including the Federal Highway 
Administration, ADOT, BIA, Intertribal Council of Arizona, Maricopa 
Association of Governments, Arizona Department of Public Safety, Indian 
Health Services, and Community departments such as the police 
department, GRIC DOT, emergency services and injury prevention program.
    The Community also conducted a Multimodal Pedestrian Safety Study 
that evaluated the pedestrian safety needs on the Reservation including 
sidewalks/shared use paths, bus stops/turnouts, and other 
infrastructure. This study was used to provide data for potential 
funding sources and build a comprehensive safety plan for the Community 
and included input from external stakeholders such as federal 
officials, business, the general public and tribal departments such as 
the police department, housing, senior center, school transportation 
department, flood control management task force and the youth council. 
This study ultimately provided recommendations on issues such as 
locations for speed reduction, trails, crosswalks, lighting, sidewalks, 
signage, bike lanes and handicap access.
    The safety plan made recommendations on responses to, and 
prevention of, crashes and locations deemed in need of safety measures, 
bicycle and ATV safety, a child safety seat program, seatbelt usage, 
and driving under the influence. The plan was approved by the Community 
Council in July of 2014.
    Together these studies have created a roadmap for safety within the 
Community. This has allowed the Community to prioritize road 
construction and safety projects, work with external partners, such as 
the State and local municipalities, in a more collaborative manner and 
identify funding sources to address the safety needs of tribal citizens 
and non-tribal users of the Community's transportation infrastructure.
Improvements To Interstate 10
    One of the issues facing the Community is working with other 
governments on planning and construction of large-scale transportation 
projects. In some cases, tribal governments are left out of the 
planning of large-scale infrastructure projects. This has been the 
Community's experience in the past as well. Recently, however, 
transportation planning and coordination between the Community and the 
surrounding governments, including the State, has improved 
significantly.
    Late last year, ADOT reached out to the Community to participate in 
a design concept report and environmental study on the addition of 
lanes to I-10, along with improvements to existing interchanges. The 
study is required for federally funded projects and will have an 
accelerated timeline of 18 months. This study will take into account 
the strategy needed to improve traffic capacity along the I-10 and to 
account for growing needs based on current and future economic 
opportunities along the corridor. This is the kind of coordination and 
planning with tribal nations that is essential to ensuring major 
transportation projects can be completed in a timely and efficient 
manner, taking into account the needs of all the affected governments 
and communities. The Community believes that this cooperation is to be 
encouraged across the country.
    As further evidence of the Community's growing collaboration with 
its surrounding governments, both ADOT and the Community will seek 
funding for the I-10 expansion project that traverses the Community's 
lands, including the required new interchanges. When projects of this 
size are contemplated, it is imperative that tribal governments, as 
equal partners, have access to the same type and level of funding that 
state and other governments have. There are few federal funding 
agreements that provide direct funding to tribes for projects of this 
scope and size. One grant that the Community recommends that Congress 
and Appropriators continue to support is the Better Utilizing 
Investments to Leverage Development (``BUILD'') program.
    The Community is looking into this program as one of the only 
feasible grants that can provide sufficient funding for projects such 
as the I-10 interchange project. This particular grant is a competitive 
grant for surface transportation projects and is open to state, local 
and tribal governments for projects like the I-10 that have a 
significant local or regional impact. These grants are split between 
rural and urban projects, but the Community recommends Congress also 
consider having a specific percentage of these grants designated for 
projects located on tribal lands. Despite overwhelming need, few tribal 
governments have been awarded these grants. In 2018 only one tribe 
received direct funding and the other project was a joint application 
with the state. For the Community, direct funding would allow us to 
begin working on this important interchange project. The State could 
also apply which would enable the tribe and state to work as partners 
on this regionally important project. I encourage Congress to maintain 
this program in the next reauthorization and to ensure that tribes are 
able to secure grants in the next phase of the allocation of this grant 
programs.
Conclusion
    The FAST Act provided positive incremental improvements in the 
tribal transportation program. It will be important to take those gains 
to crate even more significant programmatic advances in the next 
reauthorization. Aside from increasing funding levels for surface 
transportation, transit and safety programs, Congress should create 
incentives for transportation and infrastructure projects that are 
multi-jurisdiction and have significant benefits both on, and off, the 
Reservation.

    The Chairman. Thank you, Governor Lewis.
    Now I will turn to Councilman Garcia.

 STATEMENT OF HON. JOE GARCIA, HEAD COUNCILMAN, OHKAY OWINGEH 
                         PUEBLO COUNCIL

    Mr. Garcia. First of all, greetings from New Mexico. All 
the Pueblo tribes give you greetings.
    Thank you, Chairman Hoeven, Vice Chairman Udall and members 
of the Committee for the opportunity to provide testimony on 
the importance of surface transportation infrastructure for 
Indian Country.
    My name is Joe Garcia. I am Head Councilman and former 
three-term Governor of Ohkay Owingeh, co-chair of the National 
Congress of American Indians, Intertribal Transportation 
Association Tribal Transportation Task Force, a former two-term 
President of NCAI, and Tribal Co-Chair of the Tribal 
Transportation Self-Governance Program Negotiated Rulemaking 
Committee.
    I look forward to working with the members of this 
Committee to ensure that Federal transportation policies honor 
the Federal Government's treaty and trust responsibilities to 
tribal Nations.
    This Committee, more than any other, understands the 
Federal Government's sacred obligation to tribal Nations. I ask 
you to educate your colleagues and carry forward Indian 
Country's message as Congress debates the next Surface 
Transportation reauthorization.
    There are 573 sovereign tribal Nations with a formal 
nation-to-nation relationship with the United States. Tribal 
Nations tried to provide the necessary foundations for 
supporting the building of strong economies and ensuring the 
health and well being of their citizens.
    Having safe, well maintained tribal lands, roads, bridges, 
and adequate public transportation is vital to this mission. 
The stakes are high for Indian Country. Numerous government 
reports address the severe under-investment in tribal 
infrastructure, the crumbling condition of Indian Country roads 
and the lack of sufficient transportation data and crash 
statistics.
    The findings of these reports are striking. What is most 
startling is the toll on human life. According to the Centers 
for Disease Control and Prevention, motor vehicle crashes are 
the leading cause of unintentional injury or death for American 
Indians and Alaska Natives under the age of 20.
    Additionally, vehicle-related death rates for American 
Indians and Alaska Natives ages 20 and older are more than 
twice that of non-Hispanic whites and the motor vehicle death 
rate for American Indian and Alaska Native infants is eight 
times higher than that of non-Hispanic whites. These numbers 
are unacceptable.
    As Congress debates the future of Federal transportation 
policy, it is vital that Congress makes a significant 
investment in tribal roads and bridges, expands tribal access 
to national programs and provides new resources that will 
improve road safety in Indian Country. This starts with 
ensuring the continued solvency of the Highway Trust Fund which 
funds the Tribal Transportation Program. The Tribal 
Transportation Program oversees approximately 161,000 miles of 
roads and trails in Indian Country and is essential for safe 
and adequate transportation systems for tribal Nations.
    Congress must ensure that any solution to the Highway Trust 
Fund's insolvency provide adequate and stable funding for 
tribal Nations and does not impose undue financial burden on 
those living in Indian Country which is largely rural.
    Congress should also increase the initial authorization for 
the Tribal Transportation Program and include larger step 
increases for each fiscal year that follows. Congress should do 
the same for the Tribal Transit Program, appropriate more 
funding for the BIA Road Maintenance Program and increase 
tribal access to other transportation programs by providing 
tribal set-asides, waiving matching requirements and tailoring 
program requirements to meet the unique needs of Indian 
Country.
    I also want to highlight a few programs that deserve 
congressional attention. The Tribal Technical Assistance 
Program is the only program for tribal Nations to build 
capacity through training and technical assistance from experts 
who oversee and construct highways and roads in tribal 
communities.
    The Federal Highway Administration recently centralized the 
seven TTAP offices into a single office without proper tribal 
consultation. This is very troubling and I ask this Committee 
to ensure that all future agency actions affecting tribal 
Nations include meaningful consultation.
    The FAST Act created the Tribal Transportation Self-
Governance Program, which extends the Indian Self-Determination 
and Education Assistance Act to the U.S. Department of 
Transportation. Tribal Nations and DOT representatives are 
engaged in negotiated rulemaking to put this important program 
into operation. I am the co-chair of that rulemaking committee.
    Though there have been several delays on the Federal side, 
the tribal and Federal members of our Joint Negotiated 
Rulemaking Committee are aiming to finalize negotiations on a 
draft rule over the next several months.
    DOT has recognized the need to streamline programs and 
requirements under self-governance. We have urged the 
Department to understand Congress's expansion of self-
governance to DOT as a directive for DOT to use its authority 
to maximize tribal flexibility and decision-making. I ask this 
Committee urge DOT to do the same.
    Thank you again for the opportunity to testify. I would be 
happy to answer any questions you may have.
    [The prepared statement of Mr. Garcia follows:]

 Prepared Statement of Hon. Joe Garcia, Head Councilman, Ohkay Owingeh 
                             Pueblo Council
    Thank you Chairman Hoeven and Vice-Chairman Udall and members of 
the Committee for the opportunity to provide testimony on the 
importance of surface transportation infrastructure for Indian Country. 
My name is Joe Garcia, and I am Head Councilman and former three term 
Governor of Ohkay Owingeh, a co-chair of the National Congress of 
American Indians-Intertribal Transportation Association Tribal 
Transportation Task Force, a former two term President of NCAI, and 
Tribal Co-Chair of the Tribal Transportation Self-Governance Program 
Negotiated Rulemaking Committee. I look forward to working with the 
members of this Committee and other members of Congress to ensure that 
federal transportation policies, including the next surface 
transportation reauthorization, honor the federal government's treaty 
and trust responsibilities to tribal nations.
Indian Country and Transportation Infrastructure
    There are 573 sovereign tribal nations with a formal nation-to-
nation relationship with the United States. Two hundred and twenty-nine 
tribal nations are located in Alaska, while 344 are located in 34 other 
states. The total land mass under American Indian or Alaska Native 
jurisdiction is about 100 million acres, which would make Indian 
Country the fourth-largest state geographically in the U.S. 
Additionally, there are twelve tribal nations that have a larger land 
base than the state of Delaware, and the Navajo Nation alone would be 
the 42nd-largest state. According to the 2010 Census, 5.2 million 
people identified as American Indian/Alaska Native (AI/AN) alone or in 
combination with other races, which would make Indian Country the 22nd 
most populous state.
    Like all other governments, tribal nations strive to provide the 
necessary foundations for supporting the building of strong economies 
and ensuring the health and wellbeing of their citizens. To this end, 
tribal nations construct, improve, and maintain transportation 
infrastructure and facilities that are used by tribal citizens and non-
tribal citizens alike. Having safe, well-maintained tribal roads, 
bridges, and adequate public transportation is vital to public safety 
and commerce in tribal communities and benefits tribal citizens and 
those living in and around Indian Country.
    According to the most recent National Tribal Transportation 
Facility Inventory (NTTFI), there are approximately 161,000 miles of 
roads and trails in Indian Country eligible for federal funding. Of 
those, tribal nations own and maintain 13,650 miles of roads and 
trails, of which only 1,000 (or 7.3 percent) are paved (the other 
12,650 miles are gravel, earth, or primitive). Of the 29,400 miles 
owned and maintained by the Bureau of Indian Affairs (BIA), 75 percent 
are gravel, earth, or primitive. Altogether, the 42,000 miles of roads 
in Indian Country are still among the most underdeveloped, unsafe, and 
poorly maintained road networks in the nation, even though they are the 
primary means of access to American Indian and Alaska Native 
communities by Native and non-Native residents and visitors.
Lack of Federal Resources and Data
    There is great need for additional surface transportation funding 
and data in Indian Country. In December of 2018, the U.S. Commission on 
Civil Rights (USCCR) released its report, titled Broken Promises: 
Continuing Federal Funding Shortfall for Native Americans, as an update 
to its 2003 A Quiet Crisis report. \1\ The Broken Promises report 
emphasizes federal underinvestment in transportation and other 
infrastructure in Indian Country and discusses how the lack of 
investment causes significant safety concerns, interrupts the provision 
of tribal government services, and affects the overall health of tribal 
economies. \2\ In addition to the chronic underinvestment in the 
physical infrastructure of tribal communities, the USCCR goes on to 
highlight the ``severe lack of public transportation in Indian 
Country.'' \3\
---------------------------------------------------------------------------
    \1\ U.S. Commission on Civil Rights, Broken Promises: Continued 
Federal Funding Shortfall for Native Americans, https://www.usccr.gov/
pubs/2018/12-20-Broken-Promises.pdf
    \2\ Id.
    \3\ Id., citing U.S. Senator Byron L. Dorgan, Testimony before the 
Senate Committee on Indian Affairs, July 12, 2007, https://www.gpo.gov/
fdsys/pkg/CHRG-110shrg37860/html/CHRG-110shrg37860.htm
---------------------------------------------------------------------------
    Additionally, the BIA recently conducted a road maintenance survey 
that found that the total dollar value of deferred road maintenance for 
surveyed stakeholders is estimated at $498 million. The survey also 
found that more funding was the number one priority of stakeholders, 
followed by equipment needs. \4\ Data indicated that tribal nations are 
using Tribal Transportation Program (TTP) funds that could otherwise be 
used for road construction or improvement to backfill unmet road 
maintenance needs. The survey estimated that the expenditures for road 
maintenance in FY 2017 were more than double the allocated amount of 
funding for the BIA Road Maintenance program in FY 2017. \5\ Borrowing 
funds from vital programs to backfill underfunded programs results in a 
drag on the construction, maintenance, and overall safety of roads 
throughout Indian Country.
---------------------------------------------------------------------------
    \4\ Tribal/Interior Budget Council, Roads Maintenance Subcommittee 
Presentation, November 15, 2018. http://www.ncai.org/TIBC-
Nov201_ROADS_Subcmte_Preso.pdf
    \5\ Id.
---------------------------------------------------------------------------
    In May 2017, the U.S. Government Accountability Office (GAO) 
conducted a study on tribal transportation data, road management, and 
student attendance. GAO found that the NTTFI and Deferred Maintenance 
Reporting (DMR) systems contain incomplete and inconsistent road 
description and condition data that affect program efficiency and 
delivery. As a result, reports and budget submissions that rely on 
these datasets ``may not accurately reflect road conditions or 
maintenance needs and associated costs.inhibit[ing] the ability of 
Congress'' and the appropriate bureaus, offices, and agencies to make 
better-informed decisions about priorities and the transportation 
system as a whole. \6\
---------------------------------------------------------------------------
    \6\ U.S. Government Accountability Office, Tribal Transportation: 
Better Data Could Improve Road Management and Inform Indian Student 
Attendance Strategies, GAO-17-432, p. 47 (May 22, 2017).
---------------------------------------------------------------------------
    GAO also identified the significant practical impacts of poor 
tribal road conditions. The report concluded that road conditions on 
tribal lands pose challenges ``in connecting people to education, 
employment, healthcare, and other essential services,'' which are 
magnified during adverse weather due to remoteness and existing road 
conditions. \7\ Additionally, GAO concluded that road conditions do 
affect student attendance \8\ and rough road conditions can increase 
maintenance needs for school vehicles. \9\
---------------------------------------------------------------------------
    \7\ Id.
    \8\ Id.
    \9\ U.S. Government Accountability Office, Highlights of GAO-17-
432, https://www.gao.gov/products/GAO-17-423
---------------------------------------------------------------------------
    The lack of consistent transportation data also extends to crash 
statistics in Indian Country that, in turn, affect the ability to make 
better-informed decisions and allocate resources to address road 
safety. As a requirement of the Fixing America's Surface Transportation 
Act (FAST Act), the Federal Highway Administration (FHWA) produced a 
report on safety data collected in Indian Country. The purpose of this 
report was to ``improve the collection and sharing of data of crashes 
on Indian reservations'' and to ``develop data that Indian tribes can 
use to recover damages to tribal property caused by motorists.'' \10\ 
FHWA's report found that databases at the state and federal level that 
drive programmatic decisions are incomplete in tribal areas. \11\ In 
its report, FHWA states that ``[i]mproved collection and sharing of 
safety data, especially crash reports, in tribal areas would facilitate 
more effective transportation safety planning and would afford Tribes 
improved access to State and Federal funding opportunities to address 
transportation safety problems.'' \12\
---------------------------------------------------------------------------
    \10\ Pub. L. 114-94  1117(b)(2)(B).
    \11\ Federal Highway Administration, Report to Congress on Tribal 
Governments & Transportation Safety Data, p. 20, https://
flh.fhwa.dot.gov/programs/ttp/safety/documents/2016-tribal-governments-
safety-data.pdf
    \12\ Id., p. 7.
---------------------------------------------------------------------------
Road Safety in Indian Country
    Road safety remains a top priority for Indian Country and Congress 
must provide additional funding and resources to address road safety 
and behavioral issues that contribute to high rates of death and injury 
in Indian Country. According to FHWA, motor vehicle crashes caused an 
average of 655 fatalities each year in tribal areas. \13\ Motor vehicle 
crashes are the leading cause of unintentional injury death for AI/ANs 
under the age of 20. \14\ Additionally, motor vehicle-related death 
rates for AI/ANs ages 20 and older are more than twice that of non-
Hispanic whites, and AI/AN infants have a motor vehicle death rate that 
is eight times higher than that of non-Hispanic whites. \15\
---------------------------------------------------------------------------
    \13\ Federal Highway Administration, Transportation Safety in 
Tribal Areas, FHWA-HRT-18-004, Vol. 82 No. 2, https://www.fhwa.dot.gov/
publications/publicroads/18summer/02.cfm
    \14\ CDC, Tribal Road Safety: Get the Facts, https://www.cdc.gov/
motorvehiclesafety/native/factsheet.html
    \15\ Id.
---------------------------------------------------------------------------
    Despite these startling statistics, there is significant 
underfunding for tribal road safety, especially when compared to state 
funding. In FY 2018, State Departments of Transportation shared $2.23 
billion from the Highway Safety Improvement Program (HSIP) (23 U.S.C.  
402) under an allocation formula. \16\ By comparison, tribal nations 
must compete for discretionary and competitive highway safety grants 
under BIA's Indian Highway Safety Program (IHSP), 23 U.S.C.  402 (2 
percent of State apportionment); and the Tribal Transportation Program 
Safety Program, 23 U.S.C.  202(e) (2 percent set-aside of annual TTP 
allocation). In FY 2018, tribal nations competed for $8.89 million in 
TTP safety grants and had access to $5.2 million from BIA's Indian 
Highway Safety Program (IHSP). Despite motor vehicle fatalities 
occurring throughout Indian Country, only a select few tribal nations 
receive federal safety funds to address behavioral issues that factor 
into roadway accidents, injuries, and fatalities (DUI, seat belt use, 
child safety restraints, etc.) and to make highway safety improvements.
---------------------------------------------------------------------------
    \16\ Federal Highway Administration, Distribution of Highway Safety 
Improvement Program (HSIP) Funds Apportioned for FY 2018, https://
www.fhwa.dot.gov/legsregs/directives/notices/n4510824/n4510824_t12.cfm
---------------------------------------------------------------------------
Tribal Transportation Program
    TTP oversees approximately 161,000 miles of roads and trails in 
Indian Country, which are owned by the BIA, tribal nations, states, and 
counties, in order to provide safe and adequate transportation systems. 
These roadways and trails serve as the primary transportation 
thoroughfares for residents of and visitors to AI/AN communities, and 
funding for TTP is essential to safe and reliable road systems across 
Indian Country.
    TTP is funded from the Highway Trust Fund and allocated through a 
statutory formula. As such, this important source of funding for Indian 
Country roads will be greatly impacted by the potential future 
insolvency of the Highway Trust Fund. Currently, several pilot projects 
are underway to examine alternatives to an increase in the federal fuel 
tax. As Congress considers how to address the future insolvency of the 
Fund, it must uphold its treaty and trust responsibilities by ensuring 
that any solution provides a stable, adequate source of funding for 
tribal transportation infrastructure and does not impose undue 
financial burdens on those living in Indian Country, which is largely 
rural.
    The last surface transportation reauthorization, the FAST Act, 
authorized TTP funding starting at $465 million in FY 2016 and 
increases funding at $10 million per year through FY 2020 with a final 
year level of $505 million. In light of the significant unmet need as 
evidenced by recent reports, Congress must support and enhance funding 
for this program in the next surface transportation reauthorization so 
that tribal nations can provide safe and acceptable transportation 
systems in Indian Country. Enhancements should include a significant 
increase to the overall authorization level for the initial year and 
larger step increases for each year that follows.
Tribal Transit Program Funding
    The Public Transportation in Indian Reservations Program (Tribal 
Transit Program) enables tribal nations to use transit program funding 
for capital, operating, planning, and administrative expenses for 
public transit projects to meet the needs of public transportation in 
rural tribal communities. The Tribal Transit Program is a successful 
program for tribal nations to serve the community, including elders, 
those with disabilities, and Native youth; however, this program 
suffers from the same underinvestment that limits other transportation 
programs that benefit Indian Country.
    The Tribal Transit Program is authorized by section 5311(j) of the 
FAST Act and currently consists of $30 million in formula funding and 
$5 million in competitive grant funding. \17\ This program is critical 
to meeting the growing needs of tribal communities. Congress must 
support and enhance funding for the Tribal Transit Program in the next 
surface transportation reauthorization. Enhancements to this program 
should include an increase in formula funding levels and adoption of 
step increases in funding levels, similar to those found in the FAST 
Act for TTP funding. Step increases for the Tribal Transit Program 
should be greater than $10 million per year to address the severe 
underinvestment in public transit in Indian Country.
---------------------------------------------------------------------------
    \17\ Federal Transit Administration, Public Transportation on 
Indian Reservations Program; Tribal Transit Program, https://
www.transit.dot.gov/tribal-transit
---------------------------------------------------------------------------
Access to Transportation Program Funding
    Several transportation and transit programs that provide funding to 
tribal nations consist of a formula funding component and a competitive 
grant component, while other funding opportunities are offered solely 
through competitive grant models that require tribal nations to compete 
against non-tribal applicants. Formula funding methods are generally 
preferable as they provide certainty for the planning and financing 
required to complete transportation construction, improvement, and 
maintenance projects. Competitive grants, on the other hand, are not as 
conducive to planning and require labor input and other planning 
expenses that may never be recovered even where a tribal applicant 
receives grant funding.
    Additionally, competitive grant models can fail to address the 
unique needs of tribal communities, and their requirements often leave 
tribal nations effectively ineligible for programs where Congress 
intends tribal nation eligibility. Competitive grants with large dollar 
thresholds for project proposals effectively bar many tribal nations 
with shovel-ready projects from programs for which they otherwise 
appear eligible. Conversely, the complete absence of transportation 
infrastructure in certain tribal communities generates much larger 
project funding needs. In these circumstances, matching requirements 
can prohibit tribal nations from having meaningful access to these 
competitive grant opportunities.
    To help address the significant transportation needs in Indian 
Country, Congress should eliminate matching requirements for tribal 
applicants, provide significant tribal set-asides from national surface 
transportation programs, and ensure the application and programmatic 
requirements account for the unique needs of and circumstances in 
Indian Country.
Tribal Technical Assistance Program
    The Tribal Technical Assistance Program (TTAP) is the only program 
for tribal nations to build capacity through training and technical 
assistance from experts who oversee and construct highways and roads in 
tribal communities. In Fall 2016, FHWA announced the restructuring of 
the TTAP and eliminated the seven TTAPs around the country that served 
all 573 federally-recognized tribal nations. In December 2017, the FHWA 
announced a two-year pilot program and centralized the TTAP at the 
University of Virginia, Center for Transportation Studies (CTS) in 
Virginia. The entire restructuring proceeded without proper tribal 
consultation, which is very concerning. The program remains an 
important resource to improve the technical expertise of tribal 
transportation officials. Accordingly, Congress should provide a $5 
million increase in TTAP funding.
Bureau of Indian Affairs Road Maintenance Program
    Another federal transportation program that is vital to 
infrastructure in Indian Country is the BIA Road Maintenance Program, 
which is funded and authorized under the Department of the Interior. 
The BIA Road Maintenance Program covers the approximately 29,400 miles 
of BIA owned roads in Indian Country, including 900 bridges. As part of 
a recent survey conducted by the BIA, the deferred maintenance backlog 
throughout Indian Country is estimated in excess of $490 million. In FY 
2018, Congress appropriated $34.6 million for BIA road maintenance and 
this funding level has remained roughly the same for several 
consecutive fiscal years, even though maintenance needs continue to 
increase. Congress should increase funding levels to at least $50 
million in FY 2020 to address the BIA roads maintenance backlog.
Tribal Self-Governance at the Department of Transportation
    Over the past two decades, Congress has recognized that tribal 
communities have significant and unique transportation needs. Congress 
also has recognized that tribal governments are most effective in 
determining how to meet those needs. Congress has made additional 
federal transportation programs directly available to tribal nations 
and has expanded tribal authority and flexibility with respect to the 
administration of those programs. Most significantly, in the FAST Act 
Congress created the Tribal Transportation Self-Governance Program, 
which extends the Indian Self-Determination and Education Assistance 
Act to the U.S. Department of Transportation (DOT). The Indian Self-
Determination and Education Assistance Act already has proven that 
federal funds are used most effectively and efficiently when 
administered at the local level by tribal nations themselves. Through 
this extension of Self-Governance to the DOT, tribal nations will be 
able to obtain all of their transportation funds (including not only 
their TTP funds, but also transit, federal-aid, and other DOT funds) 
under a single DOT self-governance agreement. Authorizing tribal 
nations to use these Self-Governance funding agreements for all their 
transportation activities means that the administrative procedures 
associated with the various DOT programs will be streamlined, resulting 
in a faster project delivery timeline. This means that tribal nations 
will be getting safe and reliable transportation infrastructure on the 
ground and into operation faster with more cost effectiveness than ever 
before.
    Tribal nations and DOT representatives are engaged in a negotiated 
rulemaking to put this important program into operation. I am the Co-
Chair of that rulemaking committee. Though there have been several 
delays on the federal side (including the recent government shutdown), 
the tribal and federal members of our joint negotiated rulemaking 
committee are aiming to finalize substantive negotiations on a draft 
rule over the next several months.
    In our most recent meeting, the federal and tribal committee 
members have been able to identify their respective goals and intents 
with regard to the rule. The Committee aims to review drafts of 
substantive language in its next meeting in June. Our shared goal is to 
have a draft rule for public comment out by Fall 2019 and that the 
Committee will reconvene to review comments and finalize the rule by 
this time next year.
    DOT has recognized the need to streamline programs and requirements 
under Self-Governance, and we have urged the Department to understand 
Congress' expansion of Self-Governance to DOT as a directive for DOT to 
use its authority to maximize tribal flexibility and decisionmaking. I 
ask that this Committee urge DOT to do the same.
Conclusion
    Thank you again for the opportunity to testify at this important 
oversight hearing. Safe and reliable transportation infrastructure is 
vital to the enhancement of tribal economic development and to the 
wellbeing of tribal communities and surrounding non-tribal areas. I 
look forward to working with this Committee to ensure the next surface 
transportation reauthorization bill will improve the lives of tribal 
citizens across Indian Country.

    The Chairman. Thank you Councilman Garcia. Thanks also for 
your military service. We truly appreciate it.
    I am going to turn to the Vice Chairman first to start the 
questions.
    Senator Udall. Thank you, Chairman Hoeven.
    Mr. Gishi and Mr. Hess, you are both aware that the GAO 
issued a report in 2017 about the potential link between road 
conditions and increased student absenteeism on tribal lands. I 
worked through the Interior appropriations process to direct 
the Department to use $1 million to improve roads used by 
Indian students in fiscal year 2018. In the last Congress, I 
asked BIA and BIE about this issue but got a response with no 
details.
    The GAO report also recommended that the Assistant 
Secretary for Indian Affairs coordinate with the Federal 
Highway Administration and tribal stakeholders to reexamine the 
current data collected, issue clarifying guidance to ensure 
consistent reporting and establish a process for timely 
corrections to missing or bad data.
    Mr. Gishi, how has DOI used the additional $1 million in 
fiscal year 2018 appropriations to improve the conditions of 
roads and bridges for school buses?
    Mr. Gishi. Thank you, Vice Chairman.
    The Bureau of Indian Affairs, with the funds provided not 
only in 2018 but also a specific earmark in 2017, addressed 
specifically the requirements in the conference report and 
directed those funds toward those tribes who had identified not 
only school bus routes but also were in those categories of 
earth roads, unpaved roads.
    As I mentioned in our testimony, 75 percent of the road 
inventory on the BIA system is in that category of what we call 
unimproved earth or gravel roads. As many of you are aware, it 
does not take much in terms of weather to change roads in those 
conditions as opposed to surfaced, all-weather roads.
    That is where our funds went and will continue to go. We 
support that in the process of what is in 2019 also.
    Senator Udall. Right. Thank you.
    Mr. Gishi and Mr. Hess, are your agencies coordinating to 
address GAO's eight recommendations from 2017? Mr. Hess, why 
don't you start?
    Mr. Hess. Thank you, Vice Chairman.
    Yes, the Federal Highway Administration works very closely 
with BIA and the tribes in reference to the development of the 
transportation improvement plans that each tribe has to develop 
to receive funds.
    We have tribal coordinators for every tribe that the 
Federal Highway Administration has entered into agreement with. 
We assign them a tribal coordinator. The tribal coordinator 
helps the tribe navigate through the programs and the funds 
available to that tribe.
    We work with them and with the transportation planning 
funds to develop a transportation improvement plan. Given the 
needs of the tribes, the top priorities we have found are 
school bus routes and also safety. I would say almost all 
tribes rise to the top of the priority list. Those are the 
projects funded through the tribal shares that we provide to 
the tribes.
    We provide funding through a statutory formula to each of 
the 573 nationally-recognized tribes to address these varied 
needs.
    Senator Udall. Mr. Gishi, would you like to add to that?
    Mr. Gishi. Yes, please. Thank you.
    We have been working with the Federal Highway 
Administration and tribes since the report was released, 
specifically looking at the data in the inventory, reexamining 
it and have actually been able to work with the Tribal 
Transportation Program Coordinating Committee. This Committee 
is a regulatory committee established for the purpose of 
specifically providing input and recommendations to the 
Secretary of Transportation and the Secretary of Interior.
    It is through this process that we have been able to narrow 
down the inventory to those areas they feel are necessary and 
those they feel may be better off being eliminated. We continue 
to work with those tribal entities as well as the tribes 
themselves.
    Senator Udall. Mr. Chairman, I think I am going to yield to 
you since we are close here on the numbers.
    The Chairman. That would be your choice if they call the 
vote. Do you want to finish your questions in case they call 
the vote?
    Senator Udall. Sure. Let me move on to safety and school 
attendance issues. Because the roads within Indian Country are 
unpaved and not regularly maintained, the schools on 
reservations have to pay more for school bus maintenance. These 
increased maintenance costs are not factored into the 
transportation funding formula for BIE schools meaning some 
schools have to scramble for resources to keep their buses 
running.
    Councilman Garcia, you discussed the need for a stable and 
adequate source of funding for tribal transportation 
infrastructure to ensure Indian families are able to access 
health care, employment and educational opportunities for their 
children. Many of these families rely on school transportation 
to ensure that their children attend school but these children 
cannot attend school if there are no school buses available.
    Councilman Garcia, do you know how maintenance costs for 
your school buses on Ohkay Owingeh compare to those of other 
schools?
    Mr. Garcia. Senator, I can speak for Ohkay Owingeh and 
other pueblos and tribes as well, that the maintenance cost 
goes up as the roadways are deteriorated or in bad condition. 
For instance, in our small community, we have a BIA tribally-
controlled school so we only have basically one big bus.
    When you talk about greater than $8,000 for repairing and 
cost of one bus, it adds up when you include the Head Start 
facility. Remember that the communities also have other 
transportation issues like with the senior citizens. Their 
costs are high and they have a van they use as well as the 
transit program.
    All of these entities are facing some great cost in terms 
of expenditures. The biggest one in New Mexico is the 
transportation cost for Santa Fe Indian School. They provide 
transportation all the way from Ohkay Owingeh to Santo Domingo 
and San Felipe. Many of those pueblos continue to have roadways 
were you would not want to go if you did not have to go there 
or travel on those routes.
    I think the transportation costs for the maintenance of the 
buses is higher because of those roadways. The numbers continue 
to go up. The biggest one I see, a big issue for me, is the 
school in Death Valley, California. They transport students 52 
miles one way on a dirt road to get those students to a school 
facility. That is every day, one way, 52 miles. That is 
uncalled for in the United States of America. That is a bad 
situation. It is the same way in a lot of rural communities, 
Senator.
    Senator Udall. Clearly Congress should ensure that school 
bus maintenance costs are considered in funding formulas. Thank 
you very much for that statement.
    I yield back, Mr. Chairman.
    The Chairman. Mr. Gishi, your written testimony indicated 
there are some issues with implementation of the FAST Act. 
Specifically, you stated, ``The FAST Act addressed the 
longstanding issue of a competitive funding formula but there 
are still some implementation issues regarding application of 
certain data to the calculation of the tribal share of the 
funding.''
    What has the tribal response been regarding the calculation 
of the tribal share under the FAST Act and the Tribal 
Transportation Program?
    Mr. Gishi. Thank you, Chairman Hoeven.
    There have been some concerns from tribes that use the data 
associated with the formula primarily because the data is 
associated with a point in time. Many of the tribes felt this 
occurred at a time after which they began becoming part of the 
process of planning and being a part of the program. They feel 
information currently available them as part of their planning 
that they normally would prioritize projects by today is not 
being considered as part of the formula as it was developed.
    Having said that, there are a number of tribes who welcome 
the formula because it provides the means to maintain some 
uniformity, an ongoing, year-to-year amount of funding made 
available for tribal shares for not only their construction 
needs but also other areas including the planning.
    The Chairman. In the May 17 report to Congress, the 
Department of Transportation cited a lack of uniform standards 
in reporting crash data within BIA law enforcement. It found 
among the 12 BIA regions, each one uses a different crash 
report form.
    How are you addressing that to have consistency and the 
concerns that have been raised by the Department of 
Transportation regarding that?
    Mr. Gishi. BIA law enforcement is currently working within 
their incident management reporting system to try to find a way 
of providing uniform reporting at least for the BIA portions 
that are identified in the 12 regions.
    Keep in mind that the data from State to State also varies 
and the methodologies that are there. We are just one area that 
needs to have some improvement in crash data reporting.
    The Chairman. Are you trying to standardize it?
    Mr. Gishi. We are making an effort to try and standardize 
that.
    The Chairman. Mr. Hess, each year, under the FAST Act, 2 
percent of the available Tribal Transportation Program funds 
are set aside to address transportation safety issues for 
reservation roads. How beneficial has this been and how many of 
the tribes are actually being awarded funds?
    Mr. Hess. Mr. Chairman, the 2 percent set aside in the 
statute sets aside 2 percent of the funds made available to the 
Tribal Transportation Program. This is a critical program for 
the Federal Highway Administration and the tribes.
    We use the 2 percent of funds set aside primarily in two 
areas. The first area is for development of tribal 
transportation safety plans. We are pleased to report that for 
the last several years, any tribe that has requested funds for 
development of a tribal transportation safety plan, we have 
been able to fund that in full.
    Once the plans are developed, the tribes use those plans, 
based upon crash data, to develop areas where infrastructure 
improvements dealing with safety are needed. Through statute, 
Congress has made available to the Federal Highway 
Administration almost $10 million this year. Through the FAST 
Act, there was about $9 million a year which has gone up to $10 
million. Those funds are awarded directly to tribes through 
competitive, discretionary grant programs.
    We award the funds we receive to the tribes based upon 
applications they submit. Those funds are provided directly to 
tribes where they design and construct infrastructure safety 
improvements to address safety needs on tribal lands.
    The Chairman. My next question is for both Governor Lewis 
and Councilman Garcia.
    I am going to introduce a tribal transportation bill very 
soon. The bill would increase the money authorized for the 
Bureau of Indian Affairs' Road Maintenance Program from $35 
million to $46 million, among other things.
    These are some of the things it does. It reinstates the 
Tribal Transportation Bridge Program as a standalone program 
instead of a 2 percent carve-out of the Tribal Transportation 
Program.
    It directs the Secretaries of Interior and Transportation 
to work with Indian tribes in developing a standard and uniform 
crash report form. It directs the BIA to adopt one standard 
crash report form to be used by law enforcement officials. It 
increases money available for the Tribal Transportation Safety 
Fund from 2 percent to 4 percent. Those are some of the 
provisions.
    I would ask your opinion and whether or not you feel you 
could support that legislation? Gentlemen?
    Mr. Lewis. Thank you, Mr. Chairman.
    The Community would very much look forward to legislation 
such as you articulated. We would be happy to work with you on 
it as it goes through the Senate.
    There are several key issues highlighted in my testimony I 
think you have addressed. They are: increased funding for the 
BIA Maintenance Program; doubling the percentage of the tribal 
transportation safety funding available to tribes; and 
reinstating the Tribal Transportation Bridge Program as a 
separate program with its own funding source.
    The Community has found sharing data with the State in a 
consistent manner is helpful to ensure that we have the 
information we need to address these areas of safety in our 
Community's roads. This would also help with the serious under 
count that exists in Indian Country regarding data about 
serious injuries and fatalities for our Native people. I would 
say that works for the Gila River Indian Community.
    I know it may be hard to have a one size fits all approach 
on data collection but adding consistency in how and when data 
is collected would help us to show the funding and programmatic 
safety needs throughout Indian Country which, in turn, could 
result in a more targeted, successful policy with positive 
results.
    The Chairman. Thank you, Governor.
    Councilman Garcia?
    Mr. Garcia. Thank you for the question.
    In terms of data, the way I understand, in a simple man's 
mind, is that the funding should follow the needs. The data is 
not adequate. The data is not correct. The data is not 
validated but comes from different sources. Then you have a 
mixture of data that comes to the people making budget and 
financial decisions.
    Much like you do in business, you had better have good data 
if you are going to make a good business decision on how much 
funding you are providing. Whether the 2 percent set aside is 
enough is important, based on which data and what data you 
believe.
    I think it is important that all the data sources really 
have to be researched. It does not take a whole lot to research 
to ensure it is valid data. There has to be a cross corollary. 
For instance, Hill River is in the same boat as Ohkay Owingeh 
in that we have four different jurisdictions in terms of 
crashes and accidents. That is our tribal law enforcement, the 
county, Rio Arriba, the State highway patrol and the City of 
Espanola police department.
    When you investigate the data itself and look at that data, 
for one incident, you have four different versions of what 
happened and the data that goes into whichever database you 
use. If the databases cannot talk to each other, then you are 
in a world of hurt. I figure that is what is happening in 
Indian Country that there are several databases out there but 
which one is the right one, which is the correct one, which one 
is used to make financial decisions.
    It is an important issue. I think the set aside ought to 
reflect the needs of Indian Country overall. It is worse in 
some cases where they have even more jurisdictions. I think 
Navajo might be one of those cases but some of the more remote 
areas in Montana and South or North Dakota, are in that same 
boat.
    I think it is important. If we can reflect the true needs 
in Indian Country relative to safety and transportation for all 
members who traverse those roadways, that funding should be 
elevated to some level higher than 2 percent.
    The Chairman. I thank both of you for your input. I 
appreciate it and I think it is very valuable.
    Thanks to all the witnesses.
    Senator Cortez Masto.

           STATEMENT OF HON. CATHERINE CORTEZ MASTO, 
                    U.S. SENATOR FROM NEVADA

    Senator Cortez Masto. Thank you, Mr. Chairman.
    Thank you all for being here.
    I have two letters here pertaining to an issue involving 
the Death Valley Shoshone Tribe in Nye County, Nevada. It is 
relevant to the hearing today.
    The first letter is from the tribe to the Bureau of Land 
Management. It is dated February 27, 2017 regarding a land 
expansion that is mandated by the Nevada Native Nations Land 
Act. This letter is actually a follow up to multiple letters 
the tribe had already sent to the BLM.
    The tribe has been waiting years now for the Bureau of Land 
Management to complete not only a land survey but also to 
respond to a request for a self-governance compact. It is very 
important and highly relevant to the hearing today. It is also 
the subject of a second letter.
    I would like to ask the Chair that both letters be 
submitted for the record without opposition.
    The Chairman. Without objection.
    I would have been right on top of that but my outstanding 
staff assistant has me doing homework, so I apologize.
    Senator Cortez Masto. Thank you.
    Mr. Hess or Mr. Gishi, are you either of you aware of this 
issue in Nevada with this particular tribe?
    Mr. Hess. Senator, I am not aware of this specific issue.
    Senator Cortez Masto. Can I ask that you take a look at 
these letters? Would you get back to me with how we can timely 
respond to the tribe with respect to these issues? Would you be 
willing to do that?
    Mr. Hess. Yes, Senator. The Department of Transportation 
would be glad to take a look at those letters. We will get back 
to you on that.
    Mr. Gishi. Likewise, we will take those back also. Thank 
you.
    Senator Cortez Masto. Very quickly, I have one final 
question for you.
    We are talking about infrastructure and our roads. It is 
also important to get broadband access to our tribal 
communities. I know recently, I think a year ago, Congress 
passed legislation directing the various State Departments of 
Transportation to lay the groundwork for a dig once.
    In other words, as they are laying and paving road, they 
are also paving it for broadband and making sure we are 
bringing broadband to our communities. I think it is called a 
``dig once'' program.
    Mr. Hess, I am curious, are you aware of this policy and 
program, its implementation and how it is working? Do you know 
anything about it?
    Mr. Hess. This specific program, not the specific issues 
but in terms of the right-of-way program, we have been working 
closely with BIA on the right-of-way issues.
    Senator Cortez Masto. The goal is to make sure we are only 
digging once so when we are working on infrastructure, we are 
also looking at how we lay the fiber along with that.
    Mr. Hess. Yes.
    Senator Cortez Masto. Can you address that because it is 
the key to bringing broadband to all of these communities?
    Mr. Hess. Yes, Senator, I am aware of those types of 
programs. They are available not only to States but also 
tribes. That is an emphasis with the States as well as the 
tribes that when roads are put in, to put broadband lines in as 
well.
    Senator Cortez Masto. Is that happening now?
    Mr. Hess. To my understanding, yes, it us.
    Senator Cortez Masto. If you could give me a report to my 
office, that would be helpful. Just send an update on where we 
are.
    Mr. Hess. Senator, we would be glad to get back with you 
and provide more information on the status of that program.
    Senator Cortez Masto. I appreciate that. Thank you very 
much.
    I have no further questions. Thank you.
    The Chairman. Thank you, Senator.
    At this time, I will turn to Senator McSally who would also 
like to do an introduction.

               STATEMENT OF HON. MARTHA McSALLY, 
                   U.S. SENATOR FROM ARIZONA

    Senator McSally. Thank you, Chairman Hoeven.
    It actually is wonderful to have Governor Lewis of the Gila 
River Indian Community from Arizona here today as a witness. I 
am really grateful. Governor Lewis, you are such a leader in 
Arizona on so many issues. It is a real honor to have you here 
testifying today.
    As a little about his background, he is an Arizona State 
University graduate and the JFK School of Government at 
Harvard, of which I am also a graduate. You have leveraged your 
education and experience to provide years of dedicated service.
    You were elected Governor in 2014. Governor Lewis 
previously served as a Lieutenant Governor and in various 
leadership positions in gaming, telecommunications and health 
care. You also served as a board member of the National Indian 
Education Association and were a delegate to the White House 
conference on Indian education. As Governor, Governor Lewis has 
advocated for protection of the Community's water and promoted 
agricultural development vital to the Community's economy.
    As we have visited many times recently, your leadership has 
played an integral role in the drought contingency plan just 
introduced in legislation yesterday. You were absolutely 
critical in helping getting that across the finish line in 
Arizona.
    Your leadership has been noted by many and we are really 
grateful for your leadership in that regard. I appreciate 
everything you are doing on those issues. You are here today to 
talk about transportation.
    Governor Lewis, you mentioned in your testimony that more 
than 40,000 cars travel on I-10 through your community every 
single day. That number is expected to rise. You mentioned the 
example of collaboration on I-10 projects being a better 
example of how collaboration could happen.
    Your community sits at a very strategic and important 
location. These transportation issues are going to be vital for 
the State and your Community. That collaboration and 
consultation is really important.
    I know in your written testimony, you spoke about it but 
can you elaborate a bit more on this project? It is a major 
project, larger than most of the funding opportunities 
discussed today but it is absolutely critical. What else can 
you share on it?
    Mr. Lewis. Thank you.
    Senator McSally, thank you as well for your leadership in 
championing such an important piece of legislation in the DCP. 
Thank you very much.
    Regarding the I-10, that is a main artery that not only 
cuts through the Gila River Indian Community but also is a main 
transportation artery for Arizona. It is critical that the 
Community works in collaboration with the State and all of the 
transportation entities. Tribes need to be at the table, 
especially when it deals with economics and infrastructure 
needs.
    The strip that goes through the Gila River Indian Community 
has an acute safety need as well. A lot of accidents occur. The 
tribe's, our own, first responders, our fire departments, our 
police, and our EMTs answer those calls many times. In fact, we 
are one of the few entities I think throughout Indian Country 
acknowledged as an expert in hazardous materials training as 
well. You have all types of safety and transportation issues.
    The Community, myself, Lieutenant Governor Stone, and our 
17-member council are all very encouraged by the recent 
discussions with the State and working in a collaborative 
manner. I think that positively sets the table as we move 
forward in addressing these needs and concerns.
    Senator McSally. Thank you. The Gila River Indian Community 
is so critical in this project. It is good to hear that 
collaboration is there.
    If there is anything else we can do to help with 
cooperation or collaboration, please let us know. I travel that 
road many times back and forth.
    I know there have been other examples where you have been 
late to be consulted or not consulted at all. This example is 
one we could use moving forward. Is that fair to say?
    Mr. Lewis. I think the history has been inconsistent in 
regard to the proper respect due to a tribal sovereign such as 
the Gila River Indian Community. We are trying to work past 
that. We are looking toward the future now with all of our 
concerns and the needs of all our community members.
    There is so much potential in regard to economic 
development and transportation issues not only for the 
Community but also for Arizona. That is a major traffic 
pathway. We want to be at the table, we want to collaborate, 
and we want to be a part of the solution for the future.
    Senator McSally. Thank you for your continued leadership in 
all of these issues. It is really an honor to have you here 
today. I look forward to continually partnering with you on 
many issues that affect your Community.
    Mr. Lewis. Thank you, Senator.
    Senator McSally. Thank you, Mr. Chairman.
    Senator Udall. [Presiding.] Senator Tester.

                 STATEMENT OF HON. JON TESTER, 
                   U.S. SENATOR FROM MONTANA

    Senator Tester. I guess this is a question for Mr. Lewis or 
Mr. Garcia.
    In my town when I am driving down the State highways and I 
hit the line of one of the reservations, in most cases, the 
road is not in as good shape as the road I was on once I hit 
Indian Country.
    Whose responsibility is it for maintenance, upkeep, 
resurfacing and I would say plowing snow but you guys do not do 
much of that, basic upkeep on the highways, a chip seal or that 
kind of stuff? Is that the responsibility of the State, the 
BIA, the tribe, or who?
    Mr. Garcia. Good afternoon, Senator.
    Senator Tester. How are you?
    Mr. Garcia. It is good to see you.
    Senator Tester. Good to see you.
    Mr. Garcia. I just said something about Montana but on 
roadways, I think it is the responsibility of leadership. In 
New Mexico, for instance, there is a tribal/State collaboration 
Act that we put in place I think in 2006 or some time like 
that.
    The collaborative act is a partnership between the tribes 
of New Mexico and the State of New Mexico in terms of all of 
the resources available. Transportation is simply one of those 
but it includes education, health care and all the rest.
    The partnership, I think, is the important piece of it. You 
must not count out the Federal Government in this case. That 
would be part of what the Bureau of Indian Affairs does but BIA 
is also limited in what resources they provide. Sometimes it 
cannot just be road maintenance; sometimes it has to be new 
roadways that are developed. Tear down the old and create a 
better new roadway and do it right so that it lasts a lot 
longer.
    It is a responsibility of all governments. It is the tribe, 
the Federal Government and the State government. If we work 
together on it, we can find a solution but the funding has to 
come from somewhere.
    Senator Tester. I will let you off the hook. Mr. Gishi.
    Mr. Lewis. If I can also add, thank you.
    At the Gila River Indian Community, we have over 306 roads. 
Those are the responsibility of the Bureau of Indian Affairs. 
We have only gotten $3 million to maintain those roads.
    Senator Tester. Do you agree with that, Mr. Gishi?
    Mr. Gishi. Yes, it is the responsibility of the Bureau, 
particularly if they have BIA roads.
    Senator Tester. That is good.
    I know we are probably not here talking about the budget 
but we will be at some point in time. Is your budget going to 
reflect the needs in Indian Country because I have to be honest 
with you. I have not been all over the Nation but I have been 
in Montana all over several times a year. The roads in Indian 
Country are noticeably worse. I will just tell you that.
    They are usually narrower, not as wide a shoulder, and 
usually rougher. You can go down the list. They need work.
    The question is going to be under your purview, are you 
going to ask for enough money to help get basic transportation 
for economic development done where we have poverty levels 
north of 50 percent and sometimes north of 80 percent in Indian 
Country?
    Mr. Gishi. Addressing the needs as far as transportation in 
Indian Country is twofold. Not only does it require significant 
effort on the part of road maintenance, referenced here 
regarding maintenance of BIA roads, but we also have the larger 
part and that is maintaining and constructing roads which are 
in ownership of others.
    We have approximately 62 percent of the road miles out 
there in Indian Country which are the responsibility of other 
entities, in this case, county, State, other Federal agencies. 
Part of the process is that the tribes are actually 
prioritizing those roads.
    Senator Tester. Of that twofold, what about your fold? Are 
you going to have enough money to do anything?
    Mr. Gishi. We do publish on an annual basis the deferred 
maintenance report which identifies and assesses the need that 
is out there.
    Senator Tester. Who does that maintenance report?
    Mr. Gishi. The Bureau of Indian Affairs does that deferred 
maintenance report. It is part of the criteria that we have on 
an annual basis for our performance measures.
    Senator Tester. I don't expect you to know this today but 
could you get back to me and tell me what the road maintenance 
report says about not gravel roads but highways in Indian 
Country and Montana?
    I would love to know, just as a measuring stick, if they 
are in good shape by your road report or in bad shape.
    Mr. Gishi. I don't have that information before me but I 
can provide that information.
    Senator Tester. I know the Ranking Member would love to 
have that information also, right?
    Senator Udall. Yes.
    Senator Tester. I am out of time.
    Senator Udall. Go ahead.
    Senator Tester. Congress is starting to work on the Surface 
Transportation Act and I know you want to give me five 
priorities, but I only want one. If you guys had a wish list 
and could wave a magic wand, what is your number one priority 
in the Surface Transportation Act, I would assume as it applies 
to Indian Country?
    Mr. Garcia. While it is not a single point answer but 
number one, I think the funding level has to be where it is in 
the neighborhood of greater than $1 billion for funding. Along 
with that is what the FAST Act is all about, that the self-
governance initiative for tribes is the way to go in terms of 
allowing the tribes or having the tribes take on that 
responsibility so that the funding is available so they meet 
the needs of their communities that they can provide the 
appropriate solutions for local level.
    That is the way it is with all tribes. Self-governance is 
what we are working on. There will be solutions. Those are the 
one priority.
    Senator Tester. Mr. Lewis?
    Mr. Lewis. I can be very specific, Senator, for tribes to 
be treated the same and have the same access to funding as 
States.
    Senator Tester. Could you give me an idea of how much below 
they are right now per mile? You probably have not run those 
numbers.
    Mr. Lewis. I put in my earlier testimony that we are funded 
just over $9,000 a year per road. That is below adequate for 
maintenance and upkeep of the roads, Senator.
    Senator Tester. Mr. Gishi.
    Mr. Gishi. We continue to support the tribes in areas of 
their development. They are doing a lot of the planning. They 
are prioritizing the projects. From that standpoint, it is very 
clear that there is a very large need out there as indicated by 
the tribal testimony today.
    Senator Tester. Mr. Hess.
    Mr. Hess. Senator, in reference to the reauthorization, 
safety is the Department of Transportation's top priority.
    Senator Tester. I just think if we got a bunch of different 
folds, twofold, threefold, fourfold, whatever it might be, on 
this Committee, we are going to deal with the Federal end of 
things. We need to make sure the Federal end of things is up to 
snuff.
    We can advocate for the States and the tribes to be able to 
do their fair share too, but folks on this Committee do not 
have a lot of say over what goes on in tribal government, and 
we should not. It is the same with the States. We have 
legislators and governors who take care of that.
    However, at this end of things, I think we need to make 
sure that the budget meets the needs because if we are going to 
deal with issues of jobs in Indian Country, it is not just 
about giving tax breaks to corporations to move on it. There is 
more important stuff than that like roads, transportation, 
schools, housing and good water, all that kind of stuff.
    You get that and then you will be able to get businesses 
into Indian Country. You will be able to tackle some of these 
problems we have with unemployment and poverty which, by the 
way, if we ever get to a point we can do that, we will be 
saving money because the folks utilizing those programs will 
start becoming donators to the coffers that help build those 
roads.
    Thank you all for being here today.
    Senator Udall. Thank you, Senator Tester.
    I would join Senator Tester in his inquiry in terms of 
saying that we need equality when it comes to Native American 
roads. When you hit the reservation and start into the 
reservation, you should have the same kind of surface 
transportation you do off reservation.
    We have to find a way to do it. I expect you all to submit 
the budgets and let people know there is not equality here.
    I want to ask a question related to climate change, 
resiliency and planning. When we discuss surface transportation 
needs of Indian Country, we are usually talking about the lack 
of basic infrastructure like paved roads and bridges.
    We also need to plan for the future. More frequent and 
extreme flooding due to climate change is happening in Indian 
Country and across the Nation. To that end, the FAST Act 
included a provision, Section 1428, that gives authority to the 
Secretary of Transportation to encourage the use of durable, 
resilient and sustainable materials and practices and other 
innovative technologies.
    Mr. Hess, how is the DOT utilizing this FAST Act authority 
and do you agree it is needed to plan ahead to address the 
threats posed by climate change?
    Mr. Hess. Mr. Vice Chairman, yes, resiliency is part of our 
technical assistance programs at the Department of 
Transportation. As I mentioned earlier, we work closely with 
the tribes and with BIA to provide, not only funds to the 
tribes, but also technical assistance as they develop their 
transportation improvement plans.
    When requested by a tribe, we work closely with them to 
provide innovative technologies to help them update their data, 
the design standards they use to ensure they use the most 
recent and applicable design standards to address hydraulic 
openings on culverts and bridges, as well as other things 
caused by what appears to be more frequent rain events than we 
have seen in the past.
    Senator Udall. Thank you.
    Councilman Garcia, I understand the tribal transportation 
self-governance negotiated rulemaking process got off to a 
rocky start. After Federal mediators were brought in to 
facilitate, it sounds like negotiations are now back on track.
    I am committed to working with you and others to ensure the 
self-governance program at DOT is a success. Would you mind 
giving us an update on the progress of the negotiations and do 
you believe any legislative changes are necessary prior to the 
reauthorization of the FAST Act?
    Mr. Garcia. Yes, sir.
    First, we were not off to a rocky start. When the FAST Act 
team got together in 2016, we were off to a good start. It was 
in 2017 when things kind of went by the wayside and we lost a 
whole year in 2017.
    After 2017, we had a rough time getting started. I think it 
was more of a learning experience for many of the Committee 
members but that is history now. I think in 2018, the full 
Committee decided that engaging facilitators may be a better 
approach rather than this coming on the facilitation by co-
chairs and the co-chairs on the Federal side.
    The Federal team engaged the facilitators. The first 
meeting we had was in December or November. I cannot remember, 
it has been so long. The meeting got off to a good start. We 
all were encouraged by the results of the first meeting. We 
went into 2019 encouraged by the activity in the meeting we 
had.
    Then came the shutdown and then came the postponement of a 
couple of meetings we had planned had there been no shutdown. 
Be that as it may, we got fully engaged again just two weeks 
ago in Shawnee, Oklahoma.
    At that time, the entire Committee was debating where we 
start because we kind of left off in November 2018 with a list 
of items that we had not talked about together. I think the 
number was like 18 items. Up to that point, there was also 
discussion about which document do we use to start this new 
effort. We were calling it new effort.
    We all agreed in two days in Shawnee, Oklahoma. That was 
pretty amazing. First, we agreed on which document we were 
going to use to start off the new discussion. Then we all 
agreed on the items that were left and how we were going to 
resolve all of those issues.
    By the second day, the entire Committee was so engaged and 
the facilitators were running back and forth between the tribal 
caucus and the Federal caucus. Then we got to the full 
Committee. We all agreed and there was consensus on those 18 
items, if my number is right, that were going to proceed.
    The other strategy we had developed was we had the drafting 
people, representatives and attorneys from the tribal side and 
then the Federal attorneys on the DOT side, that they would do 
the drafting. The key decisions were made that these items were 
in concurrence and let us move forward.
    We are hoping that we meet the first deadline for our 
proposed rule which is June 6. I am not going to say we are 
going to make it or not but I am hoping we will. There is good 
indication that even though the rocky road, talking about bad 
roads, but talking about rocky road, maybe that is the way it 
was supposed to be, we are on a new highway now. That new 
highway is a lot smoother than it was a few months ago.
    I am encouraged by the activities we all have engaged in. 
The full Committee is acting like a negotiated rulemaking 
committee, as a full Committee. That is encouraging. I am sure 
the tribal representatives feel the same way. I am sure the 
Federal side, the DOT people, feels the same way.
    If we are on that same road, then we are off to a good end 
when we get the rules published. Then we have to wait on the 
reauthorization. That is why we hope to see an increase in the 
reauthorization of transportation.
    Senator Udall. Thank you. That is a very encouraging 
report.
    Senator Daines, if you are ready to go, please proceed. If 
not, I will ask another question.

                STATEMENT OF HON. STEVE DAINES, 
                   U.S. SENATOR FROM MONTANA

    Senator Daines. Vice Chairman Udall, thank you for your 
patience with today's kind of crazy schedule in the Senate. I 
apologize to the witnesses for being in and out today.
    Thanks for being here today. I much appreciate it.
    I want to talk a moment about traffic safety. It is a 
critical issue, especially in my home State. In fact, Montana 
and North Dakota are tied for third place in the Country for 
the highest motor vehicle-related death rates for Native 
Americans, 56 deaths per 100,000 people. Tragically, 
nationwide, motor vehicle crashes are the leading cause of 
death for American Indian and Alaska Native children.
    There are many factors that contribute to this problem, 
including alcohol-impaired driving, low seatbelt use, and low 
child safety seat use, but I would like to talk about a 
different aspect of road safety. That is the dangers on roads 
posed by natural disasters such as flooding.
    In fact, over the weekend, I spoke with Crow Chairman A.J. 
Not Afraid, Jr. In fact, earlier this week, he was in my office 
and we discussed the recent hardships they are facing. In 
March, the community of Crow Agency lost its entire supply of 
stored drinking water because of frozen pipes breaking. We had 
an unusually cold March.
    In fact, when I was flying back to Washington on a Monday 
morning in March out of the Boozman airport, it was minus 40 
degrees. That is not the wind chill; that is ambient 
temperature. De icing does not work until you get to minus 25. 
We had to wait for it to warm up to minus 25. It has been a 
tough February and March in Montana. Understandably, frozen 
pipes have broken. To this day, the people still lack access to 
clean drinking water on the Crow Reservation in many places.
    Then, a fire erupted and burned down the tribal 
administrative office building. That oftentimes happens when it 
gets really, really cold. You have frozen pipes, you are trying 
to take extraordinary measures to keep things warm, possibly 
thaw some pipes, and fire risk can increase.
    Then, to top it off, frozen pipes and fire, now we are 
hitting flooding. Heavy flooding has hit the region, combined 
with the cold winter, above normal snow packs, and rapidly 
rising temperatures and then we had heavy rain.
    Chairman A.J. Not Afraid declared a state of emergency on 
March 23. The flooding effect was so bad that at one point, 
Interstate 90, one of the key east-west connectors in this 
Country which goes from Boston to Seattle running through 
Montana, had to be completely shutdown from Hardin, Montana to 
Sheridan, Wyoming. It is kind of a sad story today of what is 
going on out there in Indian Country.
    Mr. Hess, how can the Department of Transportation better 
help keep roads safe in Indian Country when natural disasters 
strike like the severe flooding that recently hit the Crow 
Reservation?
    Mr. Hess. Thank you, Senator.
    The Department of Transportation works closely with the BIA 
and the tribes with reference to disaster funding. Funds are 
provided to the Federal Highway Administration. Once we receive 
those funds, they are available to tribes through BIA.
    Once a tribe is in a disaster situation, a national 
declaration is not necessary. The President or the Governor 
does not have to declare a declaration. That has been delegated 
to the Federal Highway Administration and a transportation 
emergency is declared by the division administrator for that 
State.
    Once a disaster has been declared a transportation 
emergency, that would allow the use of emergency relief funds. 
Funds specifically for ER for Federal agencies, what we call 
the ERFO funds, emergency relief funds for Federal 
organizations, are made available to BIA and are distributed to 
tribes if they are eligible.
    It does have to be a disaster of a larger size. It has to 
meet a minimum requirement of $700,000 to be eligible for 
disaster assistance through those funds made available to 
Federal Highway.
    Senator Daines. Thank you, Mr. Hess.
    Mr. Gishi, I want to follow up with you. How can the BIA 
contribute in this respect? Can you highlight some of the 
interagency work you do with other emergency managers in the 
Federal Government, for example, FEMA?
    Mr. Gishi. Thank you, Senator Daines.
    One of the ways the BIA does engage is in working closely 
with not only our folks in the field and also the tribes. One 
of the first essential things is to assess the needs that are 
out there. Regardless of the roads that are out there, it is a 
cooperative effort in being able to sit down and meet not only 
with the tribe, but also if there are county and State people 
involved. The first step is being able to do that and 
addressing it.
    In some cases, the situation may be something the Bureau of 
Indian Affairs can address locally. Other times, it may involve 
more coordination and cooperation. That is why the ERFO Program 
Mr. Hess mentioned is important because there are mechanisms in 
place to specifically address emergency needs, repairs and 
reconstruction.
    Senator Daines. I have had extensive conversations with 
various tribes. In fact, when I was a little boy, the Old 
Coyotes lived just down the street from us in Boozman. Mr. Old 
Coyote, the father, was one of the Crow Code Talkers in World 
War II. I used to walk to school with Rachel Old Coyote back in 
the 1960s. These are relationships that extend literally a 
couple of generations.
    I know sometimes we have conversations with our tribes and 
sometimes get bureaucracies that collide instead of 
collaborate. That is the help we are looking for, to work 
together to most efficiently and effectively provide the help 
needed in times of crisis.
    I am looking forward to continuing to see more progress in 
tribal self-governance and programs within DOT and BIA to 
enable that. I want to continue to work hard to promote safety 
on the roads in Indian Country and deal with some of these 
current crises.
    Lastly, I want to point out that bison head up there was a 
gift from the Crow Tribe. It is here in this hearing room, 
Ranking Member Udall. We are grateful for the generosity of the 
Crow Tribe. They have given to this Committee hearing room 
literally and I am hoping we can be there to help them move 
through this time of need.
    Thank you, Ranking Member Udall.
    Senator Udall. Thank you, Senator Daines.
    Mr. Hess, the FAST Act authorized a program called The 
Nationally Significant Federal Lands and Tribal Projects 
Program. This program provides funding for nationally 
significant projects in or around Federal and tribal lands.
    Tribal governments are eligible for the $300 million in 
appropriated funding for this program but so are Federal 
agencies. My concern with this program is tribal governments 
are put in the awkward position of competing for grant 
opportunities with other Federal agencies.
    How can DOT ensure that Indian tribes can compete for this 
funding on equal footing with Federal agencies?
    Mr. Hess. Thank you, Senator.
    The $325 million in funds was provided for this important 
program. The Federal Highway Administration issued a notice of 
funding opportunity last October. In reference to that notice 
of funding opportunity, we have received applications from 39 
different transportation entities with requests totaling $2.7 
billion.
    The program is obviously much needed out there. The 
Department is currently reviewing applications. Once we are 
done with our process, we will provide a notice of awards. I am 
pleased to say of the 39 applicants, 8 of those applicants were 
tribal Nations. We are looking at those applications so tribes 
are able to compete.
    The nature of the program is for projects greater than $25 
million. Smaller tribes would have trouble for this type of 
program. There are quite a few tribes out there that are able 
to compete for these types of funds and they have submitted 
applications for this program.
    Senator Udall. Great.
    Governor Lewis, do you have thoughts or suggestions on 
tribes competing for these funds?
    Mr. Lewis. Senator, yes. It is acknowledged that this is a 
good program for the need for designated funding for large 
grants. Of course, the reality is that tribes compete with all 
other agencies for a small pool, $100 million.
    We, at the Gila River Indian Community, have a project that 
would be upwards of $50 million. You can see that we need 
tribes to have the same access that States and other 
governmental entities have for meaningful funding. We see this 
as a trust responsibility. Access to funding is so critical to 
that, Mr. Chairman.
    Senator Udall. Thank you.
    Councilman Garcia, the Tribal Transportation Program is 
primarily funded through the Highway Trust Fund. Revenue 
supporting the Highway Trust Fund comes primarily from excise 
taxes on gasoline and diesel fuel. Those rates have not been 
raised since 1993.
    Unfortunately, the spending from the Highway Trust Fund has 
far exceeded revenues. We are now looking at a situation where 
the Federal Government is forced to transfer funding from the 
Treasury to make up the difference or must raise the excise 
gasoline taxes.
    Given the high need for building and maintaining surface 
infrastructure in Indian Country, my guess is that reducing the 
spending from the Highway Trust Fund would not be a good 
option.
    Do you believe Congress must consider raising the fuel tax 
in the next FAST Act reauthorization?
    Mr. Garcia. Mr. Chairman, to put it mildly, that would mean 
the people who need it the most are being asked to pay for the 
roadways they travel on. The rest of the Country would not have 
to worry about that because they can afford to pay for the 
metropolitan areas and rural communities not a big issue but if 
you are in a remote area, that means you are having to pay an 
extra few cents per gallon to provide for your own funding that 
comes back and is not a fair issue.
    Taxing, I think, is not the solution. I think there are 
other ways to do that but it has to come from the bill itself 
and then the appropriations part of it.
    Senator Udall. Thank you for that answer. I think it really 
highlights how we need to look to our formulas in the future 
because we know we now have electric cars on the roads. They 
are using the roads but do not contribute obviously because 
they are not buying gasoline.
    The formula we came up with was a formula that said if you 
used the roads and bought gasoline, then you are going to pay 
some taxes to help out and that would go into the Highway Trust 
Fund. I think we need to look at that formula and take into 
consideration rural areas and tribal areas whereas we have 
heard the testimony today and questioning from members that 
there is not equality. You drive on a road, you get to the line 
on the reservation and the road is in much worse shape.
    Mr. Garcia. Mr. Chairman?
    Senator Udall. Please, go ahead.
    Mr. Garcia. I wanted to make a point about Ohkay Owingeh. 
Highway 68 runs from New Mexico, Santa Fe, up to Taos. It is in 
the thoroughfare on tribal land. There are plans to improve 
Highway 68 from Espanola up to Taos.
    This is the craziness of transportation. There is a portion 
that runs through Ohkay Owingeh, a ten-mile stretch. The State 
transportation department can afford to pave six miles of it 
but they say they cannot afford to pay for four miles of it. 
Unfortunately, the way the roadway is, there is a gap between 
where the road repair needs to be done. There is a four-mile 
gap right smack in the middle of Ohkay Owingeh's land base, so 
they are going to pave from here to here, leave that gap and 
then pave from here to there. What kind of sense does that 
make?
    This is the dilemma many tribes, not just Ohkay Owingeh, 
are put in by States and some of them are even Federal 
highways, like interstates and what-not. I bring that story 
just to make the point that we have to work out better 
solutions.
    Thank you, Senator.
    Senator Udall. That is a very good story to end on. I think 
it highlights the whole purpose of the hearing the Chairman 
called today.
    If there are no more questions for today, members may also 
submit follow-up questions for the record. The hearing record 
will be open for two weeks.
    I want to thank the witnesses for your time and testimony 
today.
    This hearing is adjourned.
    [Whereupon, at 4:08 p.m., the Committee was adjourned.]

                            A P P E N D I X

Prepared Statement of Hon. Julian Bear Runner, President, Oglala Sioux 
                                 Tribe
Introduction
    Thank you Chairman Hoeven, Vice Chairman Udall, and Members of the 
Committee for the opportunity to provide testimony on the importance of 
roads infrastructure for Indian Country. The improvement and safety of 
roads on our Pine Ridge Indian Reservation has consistently been a 
priority for our Oglala Sioux Tribe (Tribe or OST)--now more than ever 
given the disastrous effects of severe blizzards and historic flooding 
that hit our community this March of which we are still feeling the 
effects. This statement sets forth details about our Reservation roads 
infrastructure needs, including current needs resulting from the recent 
winter storm.
Background
    Our Reservation covers approximately 3 million acres (roughly the 
size of Connecticut) and our Tribe has more than 45,000 enrolled 
citizens. Our Tribe is one of 16 sovereign nations in the Great Plains 
Region. We are also a part of the Oceti Sakowin (Seven Council Fires, 
known as the Great Sioux Nation). Our treaty rights, the United States' 
obligations to us, and our unique political relationship with the 
United States are set forth in a series of treaties through 1868, 
including the Fort Laramie Treaty of 1851 (11 Stat. 749) and the 1868 
Sioux Nation Treaty (15 Stat. 635). These treaties establish the United 
States' obligations to our Tribe.
    Chronic underfunding of Indian Country programs and treaty 
obligations over the years, however, has taken an enormous toll on our 
Tribe, citizens, and Reservation. Extreme poverty and high unemployment 
plague our Reservation. We have a critical need for community 
development. We know we have tremendous untapped potential on our 
Reservation given our vast land base, abundant natural resources, and 
the strength of our people. Yet, we lack a critical element for 
success: adequate infrastructure. A reliable transportation network is 
needed to support our Reservation, meet citizens' needs, and facilitate 
on-reservation economic development and investment. As a tribal 
government, we strive to improve our citizens' lives. But, we cannot 
achieve this goal without the necessary infrastructure. A robust roads 
system is a key part of this effort.
    Investing in infrastructure development is a classic method of 
boosting economic growth and creating jobs. We need a surge of roads 
infrastructure funding to promote economic development and job creation 
on our Reservation. Increased funding is also needed to ensure the 
safety of residents and visitors when traveling on our Reservation. The 
need is even more pressing today because of the serious flooding we 
experienced just weeks ago. The severe flooding and snowfall made roads 
impassable and cut off citizens' access to food, water, and medicine. 
Our roads, which have always been in poor condition, are now 
disastrous.
Roads Infrastructure Needs on the Pine Ridge Indian Reservation
    OST's Road Maintenance maintains 519 miles of Bureau of Indian 
Affairs (BIA) roads and bridges yet receives approximately $565,000 in 
roads maintenance funding. This pales in comparison to the roads 
funding of state and local governments. Per the 22nd Annual Highway 
Report, the nationwide average maintenance disbursement per state 
controlled mile is $25,996 and the average for South Dakota is $6,458 
per state controlled mile. The Tribe, however, receives only $1,113 in 
BIA Road Maintenance funding per BIA roadway mile, which includes 
maintenance for BIA bridges on the National Bridge Inventory (NBI). 
$1,113 is a small fraction of the weighted average that states receive 
and only 17.2 percent of what South Dakota receives. \1\ The Tribe, 
thus, incurs significant costs in maintaining BIA roadways whose needs 
far exceed available federal funding. We also have approximately 1,900 
miles of Tribal roads, not built by the BIA, for which we receive no 
federal funding for maintenance. \2\ We have almost $60 million in 
backlogged road maintenance needs.
---------------------------------------------------------------------------
    \1\ 22nd Annual Highway Report: The Performance of State Highway 
Systems, David T. Hartgen and M. Gregory Fields (Sept. 2016), available 
at https://reason.org/wp-content/uploads/files/
22nd_annual_highway_report.pdf.
    \2\ We also have a specific road issue: the Allen Road between 
Allen and Highway 18. The State receives funding for the road, but it 
is not maintaining it. A private citizen has been plowing this road in 
an effort to keep it safe for school buses. The Tribe compensates him 
what it can for his work because of the critical need to maintain the 
road for the buses. This is unacceptable. The Tribe should be provided 
adequate funding so that we can maintain this road; we stand ready to 
do the work provided we have the funding.
---------------------------------------------------------------------------
    Funding is so tight that routine bridge maintenance is not 
performed until it reaches a state of emergency. Consequently, our 
citizens face unsafe road conditions every time they travel within our 
Reservation. This includes every time our children step on a school bus 
to go to and from school. This is unacceptable. The BIA simply cannot 
address our road and bridge needs with its limited BIA Road Maintenance 
account. Our backlog continues to grow while we struggle to address 
immediate concerns.
    Our Reservation is replete with treacherous and sometimes 
impassable roads, especially in winter with snowy and muddy conditions. 
Snow and ice removal can consume up to 65 percent of our annual budget 
each winter. Snowy and muddy conditions present dangerous conditions 
for our residents (including our students) and visitors, impact our 
children's school attendance, and increase our school bus maintenance 
costs because of the extreme wear and tear caused by our precarious 
road conditions. \3\
---------------------------------------------------------------------------
    \3\ GAO conducted a site visit at Pine Ridge to assess road 
conditions and their impact on student attendance and transportation. 
GAO found that excessive mud and snow conditions sometimes made roads 
impassable for students and that, further, some roads lack basic safety 
features such as guardrails that put students' physical safety at risk. 
See GAO-17-423, ``Tribal Transportation: Better Data Could Improve Road 
Management and Inform Indian Student Attendance Strategies'' (May 
2017).
---------------------------------------------------------------------------
    Roads are critical to connecting families, strengthening 
communities, and furthering economic development. We need the United 
States to partner with us to focus on developing a roads system on Pine 
Ridge that facilitates on-Reservation commerce and ease of 
transportation. Our citizens need safe and maneuverable roadways to get 
to work, school, medical appointments, their families, and stores. 
Potholes, mud-and snow-laden roads, and an inconvenient road system 
result in inordinate costs (in gas, car damage, and time) for our 
citizens and those doing business on our lands.
Emergency Support Needed for Roads Following Severe Winter Storm
    Our Tribe suffered destructive flooding after a recent winter storm 
tore across our Reservation. We are still struggling to stem the flow 
of public safety and housing crises resulting from this disaster. Many 
citizens, for example, have been displaced from their homes by 
floodwaters, exacerbating the shortage of adequate housing that already 
existed on Pine Ridge before the storm.
    One indisputable fact is that the storm and subsequent flooding has 
wreaked havoc on our already poor-conditioned roads. The OST Roads 
Department has almost depleted its FY 2019 Roads Maintenance funding 
allocation in responding to the storm and its aftermath. We need 
emergency funding immediately so that we can complete road repairs to 
make our roads passable again, this includes funding for immediate 
hires for roads maintenance crews so we can get the work done quickly 
and efficiently.
    It is difficult to convey the severity of the storm and the scope 
of our roads funding needs through words alone. So that you can see 
some of the deplorable conditions of our roads post-storm, we are 
attaching a PowerPoint entitled, ``Oglala Sioux Tribe Cyclone Bomb 
Blizzard.'' We have also attached New York Times and Washington Post 
articles on the flood and its aftermath. \4\ We ask this Committee to 
support our efforts to receive emergency funding for our immediate 
needs. *
---------------------------------------------------------------------------
    \4\ The articles can also be accessed via these links: https://
www.nytimes.com/2019/03/24/us/midwest-flooding-pine-ridge.html and 
https://www.washingtonpost.com/national/impoverished-pine-ridge-
reservation-braces-for-more-flooding/2019/04/09/a466ed62-5b04-11e9-
98d4-844088d135f2_story.html?utm_term=.07acb35d93d9
    * The information referred to has been retained in the Committee 
files.
---------------------------------------------------------------------------
Pave the Way to Safety and Prosperity with Increased and Targeted Roads 
        Funding
    Dire circumstances require bold solutions. One bold solution is a 
drastic increase in the BIA Road Maintenance account so that Tribes, 
such as ours, can receive a funding amount that is actually viable to 
get the much needed maintenance work done adequately. Another bold 
solution is to create a new roads maintenance account that targets 
backlogged road and bridge projects by taking mile inventory, 
remoteness, and weather conditions into consideration. An influx of 
funding for road construction, maintenance, and equipment would 
increase public safety, facilitate economic development, decrease 
Tribal costs, and alleviate the hardships our members currently endure.
    We, therefore, urge Congress to provide increased and targeted 
roads funding to address these concerns. Specifically, we respectfully 
request that Congress allocate $60 million to cover our backlogged 
roads maintenance needs and increase the overall BIA Roads Maintenance 
Account to begin to address the pressing needs of tribal communities 
across the country. We also urge Congress to provide an initial amount 
of $15 million to establish a BIA roads improvement program for 
targeted projects that take into account a tribe's geographic size, 
location (and associated weather factors), and mile inventory.
    Further, to diversify the federal toolbox of programs and funding 
sources targeting roads infrastructure, we urge Congress to re-
establish and fund the Tribal High Priority Project Program within the 
Department of Transportation and create a Tribal Set-Aside from the 
Highway Safety Implementation Program. Both of these programs would 
offer tribes access to critical resources and funding for implementing 
tribal roads projects.
Priorities for Tackling Roads Issues in the Great Plains
    Please see the attached document entitled, ``Land Based Tribes 
Coalition for Maintaining and Improving BIA and Tribal Roadways.'' This 
is an informative document that lays out seven priority solutions for 
addressing the severe tribal transportation needs in the Great Plains. 
We ask this Committee, and Congress overall, to take all necessary 
steps to implement these priorities. *
---------------------------------------------------------------------------
    * The information referred to has been retained in the Committee 
files.
---------------------------------------------------------------------------
Conclusion.
    Thank you for the opportunity to provide written testimony on this 
critical topic. We look to you to fulfill the treaty obligations of the 
United States to the Oglala Sioux Tribe, in part, by providing the 
necessary support to build a strong Tribal infrastructure. The 
Committee's hearing on this important topic is a good step in that 
direction. We look forward to working with Committee Members and staff 
toward repairing, improving, and maintaining our roads in a manner that 
is safe and facilitates much-needed infrastructure, community and 
economic development on our Reservation.
                                 ______
                                 
                                   Duckwater Shoshone Tribe
                                       Duckwater, NV, March 29,2019
Senator Catherine Cortez Masto,
Hart Senate Office Building,
Washington, DC.

Dear Senator Cortez Masto,

    We understand that on Wednesday, April3, the Senate Indian Affairs 
Committee will be holding a hearing on enhancing tribal self-governance 
and safety of Indian roads. We would appreciate it if you could include 
this correspondence as part of the hearing record.
    Our reservation is located in northern Nye County, east-central 
Nevada. In 2016, by federal statute (Public Law 114-232, the Nevada 
Native Nations Land Act'') the Congress expanded our reservation by 
over 31 ,229 acres. Pursuant to this law, a federal survey of the 
boundary lines was to be completed within 6 months of enactment, April, 
2017. The federal government has missed this deadline by almost two 
years already.
    To proceed with this land expansion, we have asked the Bureau of 
Land Management (BLM) to complete a survey of the land. Despite 
repeated requests, the BLM has not completed this survey. Moreover, for 
the past several years, our Tribe has been seeking a self-governance 
contract with the BLM but the agency has not been responsive. We are 
asking for your support to ensure that the BLM responds to our request 
for a self-governance compact. This is important regarding road safety 
because the current primary road running through the reservation will 
also be passing through the expanded reservation area.
    The Tribe is currently relying on 24 miles of unpaved and unsafe 
road (State Route 379) to reach distant communities where our members 
work, attend school, and visit family. Numerous accidents and 
fatalities have occurred over the years. There is no safe place to 
change a tire, which occurs often. When we encounter semi-trucks, we 
are forced to wait because the road is too narrow in most places.
    Due to our remote location, this is an urgent issue because the 
limited access to our reservation through a poorly maintained and 
unpaved dirt road hampers our economic development. The most recent 
estimate for paving this dirt road from Duckwater, Nevada to Eureka, 
Nevada is approximately $31.6 million.
    Our Tribe's commitment to transportation safety is consistent with 
Nevada's ``Zero Fatalities, Drive Safe Nevada'' program aimed at 
reducing the risk of death and serious injuries that result from 
incidents within unsafe transportation systems such as our primary 
road, State Route 379. It is important for both the federal and state 
governments to partner with us to address this critical road safety 
problem.
    For your easy reference we have attached a map outlining the road 
improvements proposed as well as our most recent application to the 
appropriate federal and state agencies.
    We need the support of the U.S. Department of the Interior, the U. 
S. Department of Transportation and the Congress to ensure that safety 
improvements are made expeditiously.
    Thank you for our consideration of your request.
        Sincerely,
                                      Rodney Mike; Chairman
                                 ______
                                 
                                   Duckwater Shoshone Tribe
                                   Duckwater, NV, February 27, 2017
Michael J. Herder; District Manager,
Bureau of Land Management,
Ely District Office,
Ely, NV.

Dear Mr. Herder:

    As we informed you in our correspondence dated July 25, 2016, in 
addition to the broad inherent sovereign authority of the Duckwater 
Shoshone Tribe, and the reserved rights of the Tribe contained in the 
1863 Treaty of Ruby Valley, the Indian Self-Determination Education and 
Assistance Act (ISDEAA), codified at 25 U.S.C. Section 450, et seq., 
provides specific legal authority to the Tribe to propose to the BLM 
that the Tribe compact for programs currently carried out by the BLM.
    Enclosed is the Tribe's proposed Self-Governance Compact, Self-
Governance Funding Agreement, and Self-Governance Three-year budget 
from 2017. Also enclosed, you will find estimates that support the 
documentation, together with photographs taken at the proposed area for 
repair and/or replace.
    With regard to our previous correspondences dated back to November 
4, 2016, we have not heard from your office. We also submitted an MOU 
(Memorandum of Understanding) with regard to those items discussed at 
our first meeting on October 17, 2016. We look forward to hearing a 
favorable response with regard to our submissions, soon. Also attached 
is our Tribal Resolution, for your records. *
---------------------------------------------------------------------------
    * The information referred to has been retained in the Committee 
files.
---------------------------------------------------------------------------
    Thank you.
        Sincerely,
                                      Rodney Mike; Chairman

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
